APPENDIX 1

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 1 of 43

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
MICHAEL JAMES BARNES

PETITIONER

VS.

CRIMINAL NO. 3:13-cr-38(DCB)
CIVIL NO. 3:15-cv-682(DCB)

UNITED STATES OF AMERICA

RESPONDENT

ORDER GRANTING MOTIONS TO
DISMISS AND DISMISSING MOTION TO VACATE
Petitioner, Michael James Barnes (“Barnes”) filed a pro se
motion to vacate, set aside, or correct his federal sentence
pursuant to 28 U.S.C. § 2255 (docket entry 30).

The Government

moved to dismiss Barnes’s motion (docket entry 36), and Barnes, at
this point represented by counsel, responded to the Government’s
motion (docket entry 37).
In its Motion to Dismiss, the Government asserted that Barnes
had previously waived his right to collaterally attack his sentence
in a § 2255 motion; that he had failed to demonstrate that he was
entitled to proceed under the auspices and parameters of the Samuel
Johnson decision1 on which he relied; and that his argument under
the Curtis Johnson decision2 was both untimely and procedurally
barred.
The

Court

found

that

additional

briefing

was

required,

1

Samuel Johnson v. United States, 135 S.Ct. 2551 (2015)
(hereafter “Samuel Johnson”).
2

Curtis Johnson v. United States, 130 S.Ct. 1265 (2010)
(hereafter “Curtis Johnson”).

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 2 of 43

inasmuch as the Petitioner’s Response (docket entry 37) to the
Government’s Motion to Dismiss advanced new arguments supplementing
Barnes’s original Petition, and was more in the nature of an
Amended Motion to Vacate.
The Government’s Amended Motion to Dismiss (docket entry 39),
the Petitioner’s Response (docket entry 40), and the Government’s
Reply (docket entry 41) to the Petitioner’s Response are now before
the Court and fully briefed.
On July 9, 2013, pursuant to the terms of his plea agreement
with the Government, Barnes entered a guilty plea before this Court
to the charge of illegally possessing a firearm after having been
convicted previously of a felony in violation of 18 U.S.C. §
922(g)(1).

Barnes’s Presentence Report (“PSR”) detailed Barnes’s

criminal history and identified ten (10) prior felony convictions
relevant to Barnes’s present motion.3
The PSR determined that Barnes was an Armed Career Criminal
and subject to an enhanced statutory minimum sentence of 15 years
imprisonment pursuant to 18 U.S.C. § 924(e) because his offense of
conviction was a violation of 18 U.S.C. § 922(g) and he had at
least three prior convictions for a violent felony or serious drug
offense as defined in 18 U.S.C. § 924(e)(1), or both, which were

3

The relevant prior felony convictions are set forth in the
Government’s Amended Motion to Dismiss (docket entry 39, pp.2-3).

2

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 3 of 43

committed on different occasions.4

The PSR did not address under

which clause of the Armed Career Criminal Act (hereafter “ACCA”)
any particular prior felony conviction qualified as a predicate.
As noted in this Court’s prior Memorandum Opinion and Order
(docket entry 38), “Barnes’s criminal history reflected in his PSR
as adopted by the Court at sentencing is more extensive than
alleged

in

his

Indictment,

demonstrating

convictions than appeared in his Indictment.

more

violent

felony

Barnes’s motion only

attacks the prior convictions appearing in his Indictment.”
Barnes chose to limit his collateral attack to three of the
prior felony convictions listed in his Indictment.5 Neither Barnes
(in his original Motion to Vacate), nor his counsel (in response to
the Government’s Motion to Dismiss)6 has argued that Barnes’s
ultimate sentencing exposure under the ACCA is limited to those
prior convictions listed in his Indictment.
convictions

reflected

in

Barnes’s

PSR

The expanded list of

properly

reflects

his

criminal history as it existed when this Court determined that
Barnes’s sentence was subject to enhancement under the ACCA.

4

PSR, ¶¶ 24, 43, 64.

5

Florida convictions for Kidnapping on 4/12/1984, Burglary of a
Dwelling on 10/15/1979, and Attempted Robbery on 10/03/1979. Barnes
does not challenge that his Mississippi conviction for Possession of
Precursors with Intent to Manufacture Methamphetamine on 9/11/2006
qualifies as a serious drug offense under 18 U.S.C. § 924(e)(2)(A).
6

Barnes’s response to the Government’s Motion to Dismiss is
hereafter referred to as his “Amended Motion to Vacate.”

3

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 4 of 43

Indeed, at the time Barnes was sentenced, the law was well-settled
that a defendant’s sentence may be enhanced under the ACCA based
upon prior convictions for violent felonies, even though the prior
convictions were not identified in his Indictment.

United States

v. Stapleton, 440 F.3d 700, n.1 (5th Cir. 2006)(The Supreme Court
has held recidivist provisions like those in the Armed Career
Criminal Act are neither substantive offenses nor elements thereof,
and thus the fact of a prior conviction need not be alleged in an
indictment nor proven beyond a reasonable doubt, citing AlmendarezTorres v. United States, 523 U.S. 224, 118 S.Ct. 1219, 140 L.Ed.2d
350 (1998)).
BARNES’S SENTENCING HEARING
After receipt and review of the PSR prepared by the U.S.
Probation Office, Barnes appeared before this Court for sentencing
on September 30, 2013.
that

the

Court

The sentencing hearing transcript reflects

granted

Barnes’s

objection

to

the

four-level

enhancement to the offense level that was based on Barnes’s
possession of a firearm in connection with a felony offense of
possession of a controlled substance with intent to distribute. As
a result, the Defendant’s criminal history category was reduced by
one point.

The Court confirmed with defense counsel that Barnes

nonetheless remained subject to the Armed Career Criminal statutory
and guideline provisions.

Having confirmed that there were no

other objections to the PSR, the Court then adopted the PSR as

4

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 5 of 43

modified to reflect those two changes. The Court found that Barnes
was subject to an enhanced sentence under the ACCA, which required
a minimum sentence of 15 years imprisonment, stating as follows:
Then we go to the three prior convictions. He has at
least three prior convictions of a violent felony or
serious drug offense as defined in 18 United States Code
924(e)(1) or both which were committed on different
occasions and therefore he is an armed career criminal
and is subject to an enhanced sentence under the
provisions of 18 United States Code 924(e).
The Court followed the Government’s recommendation contained in
Barnes’s plea agreement and sentenced Barnes to serve 180 months,
equivalent to the ACCA statutory minimum of 15 years imprisonment,
which was below the advisory guideline range.

BARNES’S POST-SENTENCING REVIEW
The Court has noted that “[t]he docket in this case indicates
that Barnes did not seek an appeal to the Fifth Circuit; therefore,
the one year statute of limitation under Section 2255(f)(1) expired
on or about November 8, 2014.”

After this deadline, on September

21, 2015, Barnes filed his Motion to Vacate under 28 U.S.C. § 2255,
claiming that his sentence was rendered unconstitutional by the
Supreme Court’s decision in Samuel Johnson, and retroactively
subject to collateral review under Welch v. United States, 136
S.Ct. 1257 (2016) (hereafter “Welch”).
On February 9, 2017, the Court entered its Order requiring the
United States to respond to Barnes’s motion.

5

On March 13, 2017,

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 6 of 43

the United States filed a Motion to Dismiss, followed by Barnes’s
Response in Opposition on March 27, 2017, filed through his
counsel.

Construing this Response by counsel to advance new

arguments supplementing Barnes’s original Petition, on April 10,
2018, the Court entered its Memorandum Opinion and Order treating
the Response as an Amended Motion to Vacate, requested additional
briefing, and required the United States to file an Amended Motion
to Dismiss addressing these newly raised arguments.

PROCEDURAL REQUIREMENTS UNDER 28 U.S.C. § 2255
The key question before the Court is whether Barnes has
demonstrated that his sentence is unconstitutional because of
erroneous reliance on the ACCA residual clause in light of the
holdings of Samuel Johnson and Welch and, consequently, whether he
has suffered a constitutional error or injury that permits his
petition for relief to move forward.

A Section 2255 motion

premised on the holdings of Samuel Johnson and Welch must meet the
same statutory threshold requirements as any other motion for
collateral relief filed pursuant to 28 U.S.C. §2255.

In this

Circuit, the law is well-established that in any Section 2255
proceeding, the movant bears the burden to demonstrate facts that
establish a constitutional violation.
F.2d 285, 287 (5th Cir. 1989).

United States v. Woods, 870

Speculative or mere conclusory

allegations on a critical matter are insufficient to raise a

6

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 7 of 43

constitutional issue. United States v. Hall, 455 F.3d 508 (5th Cir.
2006); United States v. Pineda, 988 F.2d 22, 23 (5th Cir. 1993).
Thus, when a petitioner bases his Section 2255 motion on Samuel
Johnson, the petitioner continues to bear the burden of any Section
2255 movant: that is, to make a threshold showing that the holding
of the case on which he relies in fact applies to his particular
sentence and renders it erroneous.
If Barnes has truly stated a constitutional claim under the
Samuel Johnson decision, then his sentence may be unconstitutional
and the merits of his Section 2255 motion may be considered by the
Court to determine whether his prior felony convictions properly
qualified under the elements/force or enumerated crimes clause or
whether resentencing is required.

However, if Barnes’s sentence

was not impacted by the residual clause of the ACCA, then Barnes
has failed to state a constitutional claim and he is not entitled
to

relief

under

Samuel

Johnson,

his

sentence

remains

constitutionally imposed, and his Section 2255 motion must be
dismissed.
In an April 2018 opinion, the Tenth Circuit concisely outlined
the following approach for assessing a movant’s Section 2255 motion
premised on Samuel Johnson in United States v. Wilfong, 2018 WL
1617654, at *3-4 (10th Cir. 2018)(unpublished).

In Wilfong, the

Tenth Circuit stated:
Even now, courts continue to grapple with the everevolving
legal
and
practical
difficulties
of
7

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 8 of 43

distinguishing between movants who are entitled to habeas
relief under Johnson and movants who are not. ... [I]t is
the movant’s burden to make a threshold showing that his
sentence is erroneous under Johnson.
Because Johnson
only invalidated the residual clause of the ACCA, the
movant’s sentence is erroneous only if it relied on or
was authorized by the residual clause. If a movant can
make this showing, the burden shifts to the government to
prove that reliance on the residual clause was harmless.
In the Johnson context, erroneous reliance on the
residual clause is only harmless if the government can
prove that, even without relying on the invalidated
residual clause, the movant has three qualifying ACCA
predicate offenses ....
[W]hether the movant’s sentence relied on the residual
clause is a question of historical fact that asks whether
the sentencing court imposed the ACCA sentence based upon
the residual clause at the time of sentencing, not
whether the challenged offense would qualify as an ACCA
predicate offense under current law ....
[W]hen the record is unclear as to which clause the
sentencing court relied upon (the court’s clausal basis
or classification), we look to the “relevant background
legal environment at the time of sentencing,” i.e., “what
the controlling law was at the time of sentencing,” to
determine the clausal basis of the sentencing court’s
decision. This test is applicable, however, only when
the record is silent, and the sole question before the
reviewing court at this stage is whether the sentencing
court relied on the residual clause.
United States v. Wilfong, 2018 WL 1617654, at *3-4 (10th Cir. 2018)
(internal citations omitted)(unpublished)(emphasis added).
To identify the historical facts that either support or
contradict

Barnes’s

motion,

it

sentencing record in this case.

is

necessary

to

turn

to

the

Barnes’s sentencing transcript is

silent as to which particular prior felony convictions the Court
selected to establish the requisite number for ACCA application.
Nor does the sentencing record specify under which particular
8

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 9 of 43

clause they qualified.
delineation.

As previously noted, the PSR makes no such

See PSR ¶¶ 24, 43, 64.

At sentencing, the parties

agreed that the ACCA applied to Barnes’s ultimate sentence.

Thus,

it was unnecessary for the Court to make a more specific finding.
Section 2255 motions relying on Samuel Johnson create unique
procedural questions much akin to the age-old question “which comes
first - the chicken or the egg?”

For in such cases, in order for

a party to demonstrate the presence (or lack thereof) of procedural
defenses – such as the presence of a cognizable constitutional
claim, untimeliness of the claim, or plea agreement collateral
review waiver - it frequently becomes necessary to discuss to some
degree the merits of the claim.

Ultimately, that discussion often

demonstrates that the Section 2255 motion is procedurally barred,
as demonstrated in Barnes’s case.

For that reason, the United

States, without waiving any procedural defenses, has chosen to
address

Barnes’s

qualification

of

relevant
several

prior

felony

predicate

convictions
offenses

and

under

the
the

elements/force clause at the time the Court sentenced Barnes on
September 30, 2013.

IN THE FIFTH CIRCUIT, WHEN A SENTENCING RECORD IS
SILENT AS TO WHICH ACCA CLAUSE INFORMED THE
PETITIONER’S SENTENCE, WHAT SHOWING MUST A
PETITIONER MAKE TO RAISE A COGNIZABLE CONSTITUTIONALLYBASED CLAIM PURSUANT TO SAMUEL JOHNSON ?

9

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 10 of 43

Approximately six months after the parties addressed Barnes’s
initial motion, on October 12, 2017, the Fifth Circuit Court of
Appeals published United States v. Taylor, 873 F.3d 476, 481 (5th
Cir. 2017).

In Taylor, the Fifth Circuit had the opportunity to

adopt a standard to define the degree of proof petitioners must
demonstrate when claiming that their sentences were enhanced under
the now-unconstitutional ACCA residual clause – but where the
sentencing record is silent as to (1) which particular convictions
qualified as predicates for ACCA exposure and (2) under which ACCA
clause those particular convictions qualified.
Taylor based his Section 2255 motion on Samuel Johnson and
challenged a prior Texas conviction for injury to a child. (Taylor
also had two prior convictions for burglary of a building).

The

district court found Taylor had not contested the injury-to-a-child
conviction as qualifying under the ACCA as a “crime of violence” at
his sentencing hearing. Stating that Taylor should have challenged
that classification at sentencing and noting Taylor’s concession
that the injury-to-a-child offense counted as a “violent felony,”
the district court denied Taylor’s Section 2255 motion as untimely,
finding that the ACCA’s residual clause did not play any role in
Taylor’s sentencing.

Taylor, 873 F.3d at 477-78.

Circuit granted a Certificate of Appealability.

The Fifth

Id. at 478-79.

On appeal, the Government conceded that after Samuel Johnson,
the Texas injury-to-a-child conviction at issue would no longer

10

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 11 of 43

qualify as an ACCA predicate in light of the Fifth Circuit’s
intervening opinion in United States v. Martinez-Rodriguez, 857
F.3d 282, 286 (5th Cir. 2017)(holding, as a matter of statutory
construction, that Texas’s injury-to-a-child offense is broader
than the ACCA’s elements clause).

Consequently, the Government

conceded that if Taylor’s claim was constitutionally based, then
Taylor’s sentence exceeded the statutory maximum.

Id. at 479.

However, the Government pointed to the district court’s conclusion
that the residual clause played no role at Taylor’s sentencing and
thus argued that Taylor’s sentence was not constitutionally based.
The Government posited that Taylor bore the burden of proof to show
that at his sentencing hearing the district court construed his
injury-to-a-child conviction to qualify as an ACCA predicate under
the residual clause, rather than the still-valid elements clause.
Id.
When this Court sentenced Barnes, precedential authority
recognized several of his prior felony crimes described in his PSR
also as qualifying “violent felony” convictions under the elements/
force clause of the ACCA.

Thus, even assuming that Barnes’s

argument

is

(on

the

merits)

accurate

regarding

his

prior

convictions for Kidnapping (id.) and Burglary of a Dwelling (id.),
neither are necessary to sustain his enhanced sentence under the
ACCA.

As

demonstrated

hereafter,

removing

those

two

prior

convictions from Barnes’s sentencing calculation could not have

11

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 12 of 43

reduced his sentencing exposure – Barnes’s sentence nonetheless
remained subject to enhancement under the elements/force clause of
the ACCA.

PRECEDENTIAL AUTHORITY AT THE TIME BARNES WAS SENTENCED
GOVERNING QUALIFICATION OF BARNES’S PRIOR CONVICTIONS AS
PREDICATE VIOLENT FELONIES UNDER THE ACCA ELEMENTS/
FORCE CLAUSE
Barnes’s prior Florida Attempted Robbery conviction (PSR ¶ 29)
qualified as a “violent felony” under the elements/force clause of
the ACCA when this Court sentenced Barnes in 2013 and the same is
true post-Samuel Johnson.

United States v. Lockley, 632 F.3d 1238

(11th Cir. 2011)(Florida attempted robbery conviction categorically
qualified as a crime of violence under the elements clause of the
career offender provision of the guidelines since the Florida
statute is generic, rejecting defendant’s argument under Curtis
Johnson (2010)); See United States v. Fritts, 841 F.3d 937, 940
n.4, 941-42 (11th Cir. 2016), cert. denied __ U.S. __, 137 S.Ct.
2264 (2017) (precedent addressing whether an offense was a crime of
violence under the Guidelines’ elements clause was dispositive in
deciding whether the offense also qualified under the ACCA’s
elements clause with the same language); United States v. Joyner,
882 F.3d 1369 (11th Cir. 2018)(Florida attempted strong arm robbery
categorically qualified as a “violent felony” under the elements
clause of the ACCA).

In contrast to the law cited above, Barnes’s

12

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 13 of 43

motions cite no legal authority that agrees with his argument.7
Barnes agrees that his Mississippi conviction for Possession
of Precursors with the Intent to Manufacture Methamphetamine falls
under the category of a serious drug offense. Docket entry 30, pp.
15-17.

Thus, if one or more of Barnes’s prior felony convictions

qualified under the elements/force clause of the ACCA as a “violent
felony,” Barnes’s sentence was properly subject to enhancement
under the ACCA when this Court sentenced him in September of 2013.
In lieu of Barnes’s Kidnapping conviction (PSR ¶ 31, Count 4),
this Court had available Barnes’s prior Florida Armed Robbery
conviction (PSR ¶ 31, Count 3) as it categorically qualified in
2013 as a “violent felony” under the elements clause of the ACCA.
United States v. Dowd, 451 F.3d 1244, 1255 (11th Cir. 2006)(holding,
“without difficulty,” that a Florida conviction for armed robbery
was “undeniably a conviction for a violent felony” under the ACCA’s
elements clause).

The same is true post-Samuel Johnson.

See

United States v. Fritts, 841 F.3d 937, 942-944 (11th Cir. 2016),
cert.

denied

137

S.Ct.

2264

(2017)(defendant’s

Florida

armed

robbery conviction categorically qualifies as a violent felony
under the ACCA’s elements clause rejecting physical force arguments
under Curtis Johnson (2010), discussing Florida Supreme Court

7

See docket entry 30, pp. 15-17; docket entry 37, p. 4: “Mr.
Barnes [sic] arguments regarding why the sentence enhancements are not
applicable under the ACCA in the post-Johnson (2015) era are presented
on pages 14-21 of his Petition.”

13

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 14 of 43

decisions as well as Eleventh Circuit precedent in support of that
holding); see also United States v. Garcia, 2017 WL 1375214 (N.D.
Fl. Feb. 24, 2017)(discussing and applying Fritts as controlling
precedent in analyzing Florida armed robbery convictions under the
ACCA).

Barnes’s motions raise no challenge to his Florida armed

robbery conviction.

See PSR ¶ 31, Count 3.

In lieu of either the Florida Kidnapping conviction or the
Florida Armed Robbery conviction, the Court also had available
Barnes’s Florida Aggravated Battery conviction.
Count 6.

See PSR ¶ 31,

In 1984, when Barnes was convicted of this crime, the

Florida aggravated battery statute read as follows:
A person commits aggravated battery who, in committing
battery, (a)Intentionally or knowingly causes great
bodily
harm,
permanent
disability,
or
permanent
disfigurement; or (b) Uses a deadly weapon.
See Florida Stat. 784.045.
When this Court sentenced Barnes in September of 2013, the law
was clear that his prior conviction for Florida Aggravated Battery
qualified under the elements/force clause of the ACCA as a “violent
felony” and thus properly could be considered to enhance Barnes’s
sentence.

See Guthrie v. State, 407 So.2d 357, 358 n.3 (Fla. 5th

DCA 1981)(a conviction for aggravated battery requires proof of
great

bodily

harm,

permanent

disability,

or

permanent

disfigurement); Turner v. Warden Coleman FCI (Medium), 709 F.3d
1328, 1341 (11th Cir. Feb. 23, 2013), abrogated on other grounds by
Samuel

Johnson,

135

S.Ct.

2551,
14

cert.

denied,

570

U.S.

925

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 15 of 43

(2013)(conviction

under

Florida’s

aggravated

battery

statute

categorically qualifies under the elements clause of the ACCA).
Accord United States v. Tarver, 712 Fed.App’x. 885 (11th Cir.
2017)(unpublished)(Turner still controls). Barnes’s motions raise
no challenge concerning his Florida aggravated battery convictions.
See PSR ¶ 31, Counts 5,6.

STANDARDS OR TESTS TO DISCERN WHETHER
THE ACCA RESIDUAL CLAUSE INFORMED A PETITIONER’S
SENTENCE TO SUPPORT A CLAIM UNDER SAMUEL JOHNSON
In

Taylor,

supra,

the

Fifth

Circuit

considered

several

standards or tests applied by other Circuits when a sentencing
record is unclear as to whether a sentencing court relied on the
ACCA residual clause to enhance a petitioner’s sentence.
Taylor, 873 F.3d at 480-81.

See

The standard applied by the Ninth8 and

Tenth9 Circuits was noteworthy to the Fifth Circuit in Taylor.
Those Circuits look to a “snapshot of the legal background at the

8

See United States v. Geozos, 870 F.3d 890, 893-95 (9th Cir.
2017)(looking to the relevant legal background environment at the time
of sentencing to decide whether a sentencing court relied on the ACCA
residual clause, even when the sentencing record alone is unclear).
9

See United States v. Snyder, 871 F.3d 1122, 1124, 1129 (10th
Cir. 2017)(relevant background legal environment made apparent that
petitioner was not sentenced based on the ACCA’s residual clause that
was invalidated by Samuel Johnson; this demonstrates a “snapshot” of
what the controlling law was at the time of sentencing and does not
take into account post-sentencing decisions that may have clarified or
corrected pre-sentencing decisions); United States v. Wilfong, 2018 WL
1617654, at *4 (10th Cir. 2018)(unpublished).

15

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 16 of 43

time of sentencing” to demonstrate whether the prior conviction at
issue qualified as a predicate only under the residual clause of
the ACCA.

Applying this standard, if a particular prior felony

conviction could only qualify as a predicate “violent felony” by
using the residual clause of the ACCA, in the face of a silent
sentencing

record

the

appellate

court

can

conclude

that

the

defendant’s sentence was enhanced in reliance upon the residual
clause.
Another standard considered in Taylor is described as the
“more likely than not” standard currently used in the First10 and
Eleventh11 Circuits, which requires the petitioner to demonstrate

10

Dimott v. United States, 881 F.3d 232, 240, 242 (1st Cir.
2018)(distinguished the Fifth Circuit’s Taylor opinion, relying on
precedential authority in the First Circuit that placed the prior
conviction at issue within the parameters of the enumerated crimes
clause). The First Circuit refused to adopt a rule that, when faced
with a silent sentencing record, the appellate court must assume that
the defendant was sentenced under the residual clause of 18 U.S.C. §
924(e). The First Circuit refused to break with its time-honored
precedent that federal post-conviction petitioners bear the burden of
proof and production under § 2255, and must establish by a
preponderance of the evidence that they are entitled to relief.
11

Beeman v. United States, 871 F.3d 1215, 1218-24 (11th Cir.
2017)(“To prove a Johnson claim, the movant must show that - more
likely than not - it was the residual clause” that resulted in the
ACCA sentencing enhancement.) The Beeman decision resolved prior
dueling dicta in the Eleventh Circuit decisions of In Re Moore, 830
F.3d 1268, 1271-72 (11th Cir. 2016)(suggesting that a movant has the
burden of showing that he is entitled to relief even when it is
unclear whether the district court relied on the residual clause or
other ACCA clauses) and In re Chance, 831 F.3d 1335, 1339-40 (11th Cir.
2016) which Barnes cites in his motion(s). The Chance panel suggested
that the sentencing court must ignore precedent unless the sentencing
judge uttered the magic words “residual clause” but the panel
acknowledged that its own opinion was merely dicta; however, in
Beeman, the Eleventh Circuit chose not to adopt the Chance standard.

16

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 17 of 43

that the ACCA residual clause “more likely than not” affected the
challenged sentence.

However, even applying this standard, the

Fifth Circuit in Taylor took notice that “if the law was clear at
the

time

of

sentencing

that

only

the

residual

clause

would

authorize a finding that the prior conviction was a violent felony,
that circumstance would strongly point to a sentencing per the
residual clause.”

Taylor at 481.

Taylor further noted the

Eleventh Circuit’s emphasis that “it is the state of the law at the
time of sentencing that matters, and subsequent legal decisions ...
‘cast[ ]very little light, if any’ on the question of whether the
defendant was sentenced under the residual clause.”

Id.

Another standard considered in Taylor is described as the “may
have been used” standard, applied in the Fourth12 and the D.C.13
Circuits,

which

requires

petitioners

to

demonstrate

that

the

residual clause “may have been used” to result in the ACCA enhanced
sentence.

Ultimately, the Fifth Circuit found it unnecessary to

adopt any particular standard, because under the facts before it,
Taylor’s claims merited relief under all the tests articulated by
the various Circuits.

Taylor’s Texas conviction for injury-to-a-

child obviously did not fall within the enumerated crimes clause of
the ACCA, nor did it fall within the elements clause of the ACCA

12

United States v. Winston, 850 F.3d 677, 682 (4th Cir. 2017).

13

United States v. Wilson, 249 F.Supp.3d 305, 310-11 (D.C. Cir.

2017).

17

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 18 of 43

given intervening Fifth Circuit precedent.

As that conviction was

necessary to sustain Taylor’s ACCA sentence enhancement as one of
his three required predicate offenses, it could only have qualified
under the residual clause of the ACCA.

Similarly, there was legal

precedent in the Fifth Circuit from 2002 suggesting that Taylor’s
prior Texas conviction for injury-to-a-child could have applied
only under the residual clause.14 Thus, the Fifth Circuit concluded
that

Taylor’s

claim

would

merit

relief

under

each

Circuit’s

standard, demonstrating a constitutional injury and satisfying the
showing required under 28 U.S.C. § 2255(h)(2).15

BARNES’S MOTIONS TO VACATE SENTENCE FAIL TO STATE A
COGNIZABLE CLAIM UNDER SAMUEL JOHNSON AND THUS ARE BARRED
BY THE STATUTE OF LIMITATIONS
Barnes argues that Samuel Johnson and Welch resurrect his
right

through

a

Section

2255

motion

to

challenge

the

constitutionality of the Court’s application of the ACCA to his
sentence – a right that arguably expired on or about November 8,
2014,16 unless the Samuel Johnson and Welch decisions specifically
revive it.17

Barnes seems to contend that these decisions tolled

the statute of limitations as to any ACCA sentences as long as

14

Taylor was sentenced in 2006.

15

Taylor at 482.

16

28 U.S.C. § 2255(f)(1).

17

28 U.S.C. § 2255(f)(3).

18

Taylor, 873 F.3d at 477.

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 19 of 43

claims of injury are alleged to relate to these decisions.
However, it is unquestioned that the Samuel Johnson and Welch
decisions impact only the residual clause of the ACCA.

Thus, to

state a cognizable claim and avoid the statute of limitations,
Barnes must demonstrate in his motions that the residual clause
guided his sentence, which he has failed to do.

He is unable to do

so because when he was sentenced on September 30, 2013, he had
other prior felony convictions reflected in his PSR - part of his
sentencing record - that qualified as “violent felony” predicates
under the elements/force clause of the ACCA and supported the
enhanced sentence imposed by the Court.

Thus, Barnes cannot state

a cognizable constitutional claim under Samuel Johnson, and any
other claims are barred by the statute of limitations.

The claims

that do appear in his motions are conclusory on a critical matter
and thus are insufficient to raise a constitutional issue.

United

States v. Hall, 455 F.3d 508 (5th Cir. 2006); United States v.
Pineda, 988 F.2d 22, 23 (5th Cir. 1993).

BARNES’S INITIAL MOTION FAILS TO STATE
A COGNIZABLE CLAIM OF CONSTITUTIONAL INJURY
Barnes’s initial motion articulates three claims in an attempt
to assert constitutional error in his ACCA sentence, none of which
provide an adequate foundation for his conclusion that his sentence
is unconstitutional.
First,

Barnes

notes

that

he
19

“faced

a

mandatory

minimum

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 20 of 43

sentence under the residual clause of the ACCA.”18
likewise

faced

a

mandatory

minimum

Of course, he

sentence

under

the

elements/force clause of the ACCA as previously discussed.
Second, Barnes’s claim attempts to restrict this Court’s focus
solely

to

his

(kidnapping,

prior

burglary

convictions
of

a

listed

dwelling,

in

his

attempted

indictment

robbery),19

position that is unsupported under well-established law.

a

In his

attempt to produce a viable Samuel Johnson claim, Barnes wholly
ignores his other prior convictions identified in his PSR which
qualified

as

“violent

felony”

predicate

offenses

under

the

elements/force clause of the ACCA as acknowledged by precedential
authority in existence when he was sentenced, and thus supported
Barnes’s enhanced sentence.
Third, Barnes states “Johnson (2015) made significant changes
to sentencing law in regard to when a defendant is considered an
armed career offender.

These changes affect the sentence that the

Court ordered Mr. Barnes to serve.”

(docket entry 30, p.31).

However, merely citing to the Samuel Johnson decision is not enough
to demonstrate that Barnes himself suffered constitutional error,
which is required to raise a cognizable claim in a motion to vacate
under

28

U.S.C.

§

2255.

Barnes’s

conclusory

claims

and

his

arguments in support thereof fail to demonstrate that his sentence

18

Docket entry 30, p.1.

19

Docket entry 30, p.4.

20

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 21 of 43

was in any way influenced by the ACCA residual clause invalidated
by

Samuel

Johnson,

or

that

Barnes

is

otherwise

entitled

to

collateral relief under the parameters of that decision.

BARNES’S AMENDED MOTION LIKEWISE FAILS TO
STATE A COGNIZABLE CLAIM OF CONSTITUTIONAL INJURY
Barnes’s amended motion more directly asserts that he was
sentenced under the residual clause provisions of the ACCA, yet
that claim remains factually unsupported.

(docket entry 37, p.2).

His amended motion incorporates by reference his arguments in
support of his initial motion, which the Government has previously
addressed.
take

an

(docket entry 37, p.4).

additional

step:

he

Barnes’s amended motion does

claims

to

have

demonstrated

by

exclusion that his prior convictions listed in his indictment must
have fallen within the residual clause of the ACCA because, in his
view, they did not satisfy the physical force standard of Curtis
Johnson (2010).

(docket entry 37, p.16).

However, as previously

discussed, at the time this Court sentenced Barnes, precedential
legal authority concerning his Florida convictions for attempted
robbery, armed robbery, or aggravated battery, determined these
felonies

nonetheless

qualified

as

predicates

under

the

ACCA

elements/force clause.
As the Government points out, Barnes argues that he followed
pre-Samuel Johnson procedure outlined in United States v. Harrimon,
568 F.3d 531, 534 (5th Cir. 2006) to demonstrate that his 2013
21

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 22 of 43

sentence was affected by the residual clause of the ACCA, as
opposed to the elements/force clause or the enumerated clause.
(docket

entry

38,

p.11).

However,

Harrimon

is

readily

distinguishable and virtually of no value to the analysis of the
issues before this Court.

The Harrimon Court did not face the

question of whether a conviction qualified as a predicate offense
under the elements/force clause or the enumerated clause or the
residual clause.

The Harrimon Court noted that the Government did

not contend that Harrimon’s conviction (for evading arrest or
detention by use of a vehicle) qualified under the elements/force
clause or under the enumerated clause; thus, the residual clause
was the only remaining clause under which that conviction could be
analyzed for ACCA application.

The analysis used by the Harrimon

Court was limited to whether or not a particular crime fell within
the parameters of the ACCA’s residual clause, and nothing more.
Post-Samuel Johnson, it is an analysis of no import under the ACCA.
The Harrimon decision, which was in place at the time of Barnes’s
sentencing hearing, does not demonstrate that any of Barnes’s prior
convictions listed in his indictment, or those listed in his PSR,
qualified solely under the ACCA’s residual clause.

Thus, Harrimon

has no application to the analysis of the issues before this Court.
Even if Barnes’s motions had successfully demonstrated that
the residual clause in fact informed his ACCA sentence, he would
still not be entitled to the relief he seeks.

22

The United States

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 23 of 43

Supreme Court instructed in Welch that even if a defendant’s prior
conviction was counted under the residual clause, courts can
consider whether that conviction counted under another clause of
the ACCA. In re Moore, 830 F.3d 1268, 1272 (11th Cir. 2016)(quoting
Welch, 136 S.Ct. at 1268 (2016)(“It may well be that the Court of
Appeals on remand will determine on other grounds that the District
Court was correct to deny Welch’s motion to amend his sentence.
For instance, the parties continue to dispute whether Welch’s
strong-arm robbery conviction qualifies as a violent felony under
the elements clause of the Act, which would make Welch eligible for
a 15-year sentence regardless of [Samuel] Johnson.”).
Notably, Barnes’s substantive argument in his collective
motions focuses upon how his prior convictions in his indictment
would

not

qualify

as

predicate

violent

felonies

under

the

elements/force clause based on the Curtis Johnson decision. Barnes
suggests that the Curtis Johnson decision and its analysis of
physical force has only now become relevant to his sentence given
the demise of the residual clause in the Samuel Johnson decision,
thus Barnes suggests that his claim should not be deemed to be
untimely.

But even if his argument could be accepted as true, for

it to apply in this case Barnes must show that each of his
remaining prior felonies reflected in his PSR fell only within the
parameters of the residual clause at the time he was sentenced.
From the case law previously cited, it is clear that the law

23

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 24 of 43

rejects and defeats such an argument.

Consequently, Barnes’s

collective motions fail to present the constitutional question on
which Samuel Johnson and Welch permit collateral review.
In an effort to show a constitutional injury, Barnes in his
Amended Motion (Docket entry 37, pp.13-15) devotes significant
effort to urge this Court to follow the Fourth Circuit’s “may have
been used” standard as described in Winston, and/or the standard
formerly applied in the Eleventh Circuit pre-Beeman.

However, the

Fifth Circuit in Taylor has broadcast its interest in the state of
the law at the time of sentencing, to enlighten the Court on which
provisions of the ACCA were used at sentencing where the sentencing
record is silent, as it is in Barnes’s case.
Nonetheless, applying the same approach used by the Fifth
Circuit in Taylor, 873 F.3d at 482, under each standard Barnes’s
claim fails.

When this Court sentenced Barnes on September 30,

2013, the relevant “background legal environment” demonstrated that
he had “violent felony” prior convictions that were recognized as
falling within the parameters of the ACCA elements/force clause.
In light of such precedential authority, there is no reasonable
basis to contend that this Court “may have” needed to resort to the
residual clause to enhance Barnes’s sentence.

Nor is there any

reasonable basis to contend that Barnes “more likely than not” was
sentenced under the residual clause.

Thus, Barnes has failed to

demonstrate

under

a

constitutional

injury

24

the

Samuel

Johnson

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 25 of 43

decision, and has failed to satisfy the showing required under
Section 2255(a) and (f), requiring dismissal of Barnes’s Petition
and Amended Motion.
Since Barnes cannot demonstrate that he is entitled to relief
under the limits of Samuel Johnson and Welch, as previously noted,
Barnes’s plea agreement waiver of appeal provision (docket entry
17, p.4) remains effective and bars Barnes’s Section 2255 petition.
The

law

“defendant’s

in

the

waiver

of

Fifth

Circuit

appeal

may

dismissal on contractual grounds.”
F.3d 226, 230 n.5 (5th Cir. 2006).

is

well-settled

entitle

the

that

government

a
to

United States v. Story, 439

See also United States v. Bond,

414 F.3d 542, 546 (5th Cir. 2005)(dismissing appeal based on appeal
waiver); United States v. Burns, 433 F.3d 442, 451 (5th Cir.
2005)(same); United States v. Harris, 434 F.3d 767, 774 (5th Cir.
2005), cert. denied, 547 U.S. 1104 (2006)(same).
In Barnes’s case, the Government moves for dismissal based on
its entitlement to enforce the provision in its plea agreement with
Barnes, by which Barnes agreed to waive appeal.

See United States

v. Portillo, 18 F.3d 290, 292 (5th Cir.), cert. denied, 513 U.S. 893
(1994)(affirming based on appeal waiver); United States v. Brown,
328 F.3d 787, 791 (5th Cir. 2003)(same); United States v. CuevasAndrade, 232 F.3d 440, 446 (5th Cir. 2000), cert. denied, 532 U.S.
1014 (2001)(absent any “indication that the waiver provision was
involuntary, we must enforce it”).

25

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 26 of 43

The United States is entitled to receive the benefit of its
bargain under the plea agreement by which Barnes agreed to forego
his right of appeal.

A defendant may waive his right to file a

Section 2255 motion, although such a waiver might not apply to an
ineffective assistance of counsel claim.
307 F.3d 336, 339 (5th Cir. 2002).

United States v. White,

While Barnes also may not be

able to waive his right to appeal an illegal or unconstitutional
sentence, he certainly can exercise his right to waive a legally
and constitutionally imposed sentence, and he did so in his Plea
Agreement.

(docket entry 17, p.4).

Five affirmations by Barnes

concerning his Plea Agreement appear in bold on page 6 of the
agreement immediately preceding Barnes’s signature.

(docket entry

17, p.6).
Consequently,
voluntary

nature

Barnes
of

his

does

not

challenge

Plea

Agreement

with

the
the

knowing

and

Government.

Nevertheless, he asserts that the waiver should not be enforced for
two reasons: (1) he could not knowingly and voluntarily waive an
unknown right later afforded to him by Samuel Johnson, and (2) it
would be a miscarriage of justice to apply the waiver to his case.
As to the first point, the United States points out that under
the legal authority and argument previously presented to the Court,
Barnes has no constitutional injury that affords him any relief
under Samuel Johnson.

Since Samuel Johnson affords Barnes no

exercisable right under the facts of his case, his plea agreement

26

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 27 of 43

waiver remains viable and unaffected by that decision.
second

point,

the

United

States

submits

that

it

As to the

would

be

a

miscarriage of justice to fail to apply the clear and unambiguous
waiver in Barnes’s case.
The law in the Fifth Circuit is well-established that “an
informed

and

voluntary

waiver

of

post-conviction

relief

is

United States v. Wilkes, 20 F.3d

effective to bar such relief.”

651, 653 (5th Cir. 1994)(per curiam).

In United States v. White,

307 F.3d 336, 343, n.4 (5th Cir. 2002), the Fifth Circuit recognized
one exception to this general rule: An ineffective assistance of
counsel claim survives a Section 2255 waiver only when the claimed
ineffective assistance directly affected the validity of the waiver
or the plea itself.

This left open the question of whether a

Section 2255 waiver could be enforced “where the sentence facially
(or perhaps indisputably) exceeds the statutory limits.”

Id.

Approximately two years later, this question was addressed in
United

States

v.

Hollins,

97

Fed.App’x

477,

478

(5th

Cir.

2004)(unpublished), wherein the Fifth Circuit faced the problem of
a Section 2255 motion alleging ineffective assistance of counsel in
which defense counsel did not object to a sentence improperly
calculated under U.S.S.G. § 5G1.2(d).
court

imposed

consecutive

sentences

In Hollins, the district
on

multiple

facially exceeded the statutory maximum allowed.

counts

that

Hollins waived

his right to bring a collateral attack based on his sentence.

27

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 28 of 43

Under these facts, the Fifth Circuit did not enforce the waiver.
The Fifth Circuit found that Hollins was prejudiced by his lawyer’s
deficient

performance,

and

held

that

Hollins’s

counsel

was

ineffective in neither objecting to nor appealing each of his
sentences on the basis that they exceeded the statutory maximum for
the crime to which Hollins pleaded guilty.

Id.

The sentence this Court imposed upon Barnes neither “facially”
nor “indisputably” exceeds the statutory maximum sentence Barnes
faced, and thus it does not present the constitutional concerns
appeals courts have faced when a defendant’s appeal waiver might
deny him any appellate challenge for an unconstitutional sentence
that exceeds the statutory maximum allowed, as was the case in
Hollins.

Barnes’s appeal waiver remains intact and viable.

The decisions on this issue cited by Barnes rely upon either
a concession or a supposition that the defendant in the particular
case experienced constitutional injury from the ACCA residual
clause described in the Samuel Johnson decision, and consequently
the defendant would have received an unconstitutional sentence. In
those decisions, the concession or supposition arose from the
historical facts in the particular case.

However, the historical

facts in Barnes’s case demonstrate that his sentence at all times
was subject to enhancement for prior violent felony convictions
qualifying

under

the

ACCA

elements/force

clause,

the

constitutionality of which remained unquestioned after Samuel

28

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 29 of 43

Johnson. Since Barnes neither demonstrates that this Court imposed
an unconstitutional sentence upon him, nor demonstrates that he
received ineffective assistance of counsel in the execution of his
plea agreement, Barnes’s plea agreement waiver of collateral review
of his sentence remains valid and binding, and its legitimacy and
vitality is completely unaffected by the decisions in Samuel
Johnson and Welch.
Barnes’s reliance upon United States v. Torres, 828 F.3d 1113,
1124-25 (9th Cir. 2016) post-Samuel Johnson is misplaced.

Barnes

has claimed that “[i]t is hard to imagine a case with more
comparable legal issues than the subject case and Torres.

Both

involve waiver of appeal issues that relate to filing Section 2255
petitions pursuant to the holdings in [Samuel] Johnson.”

(Docket

entry 37, p.7). However, the only actual similarity between Torres
and Barnes’s case is that each defendant appealed a sentence that
was imposed after a guilty plea to the offense of possession of a
firearm by a convicted felon in violation of 18 U.S.C. § 922(g)(1).
United States v. Torres, 828 F.3d at 1117.
Unlike Barnes’s case, Torres involved a direct appeal of
Torres’s sentence, and was not raised under the rubric of a Section
2255 motion as alleged in Barnes’s Amended Motion.

(docket entry

37, p.7).

Also, unlike Barnes, Torres appealed the consti-

tutionality

of

the

residual

sentencing guidelines.

clause

in

section

2K2.1

of

the

Torres’s case was heard prior to the U.S.

29

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 30 of 43

Supreme Court decision in Beckles v. United States, 137 S.Ct. 886
(2017), which held that the U.S. Sentencing Guidelines were not
subject to a constitutional challenge for vagueness.
S.Ct. at 890, 897.

Beckles, 137

At that time, the Ninth Circuit found that an

“open question” existed as to whether or not a similarly-worded
residual clause in the sentencing guidelines remained viable after
the Samuel Johnson decision.

Id.

The Ninth Circuit correctly

recognized that “a waiver of appellate rights will also not apply
if a defendant’s sentence is ‘illegal,’ which includes a sentence
that

‘violates

the

Constitution.’”

Torres,

828

F.3d

at

1125

(internal citations omitted).
However,

in

Torres’s

case,

based

upon

the

Government’s

concession that it believed Samuel Johnson’s holding also would
apply to U.S.S.G. § 2K2.1(a)(2), the Ninth Circuit assumed without
deciding that Samuel Johnson’s holding also would nullify an
identically-worded residual clause in the sentencing guidelines.
Consequently, the Ninth Circuit assumed that Torres was sentenced
pursuant to a provision that was unconstitutionally vague, causing
the Ninth Circuit to also assume

that Torres’s sentence was

illegal. Consequently, the Ninth Circuit concluded that the waiver
in Torres’s plea agreement could not bar his appeal.

The Ninth

Circuit stated, “[B]ecause the government agrees that Torres’s
prior convictions do not justify the imposition of § 2K2.1(a)(2)’s
crime-of-violence enhancement absent the residual clause, we vacate

30

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 31 of 43

Torres’s sentence and remand for resentencing.”

Id.

Torres,

makes

in

Barnes’s

case

the

United

States

Unlike in
no

such

concession, and the United States has demonstrated that Barnes’s
ACCA enhancement applied without consideration of the residual
clause.
On the facts of Barnes’s case, the Court cannot assume that
Barnes is entitled to collateral relief under Samuel Johnson merely
because Barnes was sentenced before the Samuel Johnson decision was
handed down. Nor can the Court assume that Barnes’s plea agreement
provision waiving his right to bring a motion under 28 U.S.C. §
2255 is invalid because Barnes could not waive a right he did not
yet have.

To do so would require the Court to assume that Barnes,

in fact, was sentenced under the residual clause of the ACCA giving
rise to such right.

For the reasons previously stated, any such

assumptions would be misplaced and erroneous.
United States v. McBride, 826 F.3d 293, 295-96 (6th Cir. 2016),
another direct appeal, also fails to advance Barnes’s argument
regarding the viability of his plea agreement waiver.
McBride

offer

protection

to

Barnes’s

motion

on

procedural defenses raised by the United States.

any

Nor does
of

the

The McBride

decision did not involve a § 2255 motion to vacate sentence, and
therefore the McBride court could not address whether a defendant
had properly demonstrated a constitutional injury in order to
advance his § 2255 motion under the Samuel Johnson decision.

31

The

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 32 of 43

question in McBride was whether or not federal bank robbery still
qualified as a crime of violence under U.S.S.G. § 4B1.1(a).
On direct appeal, McBride argued that, post-Samuel Johnson, he
was not bound by his plea agreement stipulation that he was a
career offender having at lease two prior crime of violence
convictions pursuant to U.S.S.G. § 4B1.1(a).

The Sixth Circuit

recognized that “a defendant can only abandon known rights” and
“could

not

have

intentionally

relinquished

a

claim

Johnson, which was decided after his sentencing.”

based

on

McBride, 826

F.3d at 295. Importantly, the Sixth Circuit noted: “The only claim
that McBride could not have waived is that his prior convictions
for bank robbery were crimes of violence before Johnson, but
through the residual clause alone.”

Id. (emphasis in original).

As this language clearly verifies, a petitioner can only place
himself under the umbrella of relief afforded by the Samuel Johnson
decision, and hope to avoid a waiver when his prior convictions
“were crimes of violence before Samuel Johnson, but through the
residual clause alone.”

Id. (emphasis added).

The Sixth Circuit

rejected McBride’s argument that bank robbery was a crime of
violence through § 4B1.2(s)’s now-defunct residual clause, but not
through its physical-force clause. Id. The Sixth Circuit affirmed
the district court’s judgment and sentence.

Id. at 296.

Applying McBride to Barnes’s case, it is apparent that several
of Barnes’s convictions were crimes of violence before Samuel

32

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 33 of 43

Johnson, but not through the residual clause alone.

Thus, McBride

does not advance or protect Barnes’s motion, but rather shows that
his motion is barred for failing to show a constitutional injury
under the parameters of Samuel Johnson, and is further barred as
untimely, thus effectively waived under the terms of Barnes’s plea
agreement.
Finally, Barnes suggests that enforcing the waiver in his plea
agreement would be tantamount to a “miscarriage of justice,” citing
United States v. Powell, 574 Fed.App’x. 390, 394-95 (5th Cir. 2014).
Barnes concedes that the Fifth Circuit has not adopted such a third
step in analyzing whether an appeal of a sentence is barred by an
appeal waiver provision in a plea agreement, but still he suggests
that the Court should take this opportunity to do so.

However,

Powell construed an appeal-waiver clause that, by its terms,
exempted
range.”

a

sentence

Id.

“above

Because

the

the
word

applicable

sentence

“applicable”

was

guideline
subject

to

different interpretations, applying precedential authority the
Fifth Circuit adopted an interpretation favorable to the defendant
and did not enforce that particular waiver.

Id.

But the Fifth

Circuit did enforce against Powell a separate waiver provision
where Powell reserved the right to appeal a sentence “greater than
the maximum sentence authorized by statute.”

The Fifth Circuit

found this waiver to be enforceable because Powell’s sentence
obviously

did

not

exceed

the

33

statutory

maximum

term

of

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 34 of 43

imprisonment.
Barnes’s

Id.
waiver

interpretations.

contains

no

terms

subject

to

different

Powell fails to support Barnes’s argument that

his waiver is unenforceable.

To the contrary, in Powell the Fifth

Circuit upheld its well-established practice of enforcing such
waivers where, as in Barnes’s case, the language of the waiver is
unambiguous, and the facts and posture of the case support its
applicability.
Historical facts and precedential authority show that Barnes’s
sentence

was

not

influenced

by

the

ACCA

residual

clause

at

sentencing, nor was it influenced thereafter by the Samuel Johnson
decision.

The Court constitutionally enhanced Barnes’s sentence

under the ACCA’s elements/force clause and the ACCA’s serious drug
offense clause, based upon qualifying predicate prior convictions
reflected in Barnes’s Presentence Report.
Barnes failed to state a cognizable constitutional claim of
error under Samuel Johnson.

Thus, Barnes’s position is untimely

and barred under 28 U.S.C. § 2255(f).

Inasmuch as Barnes’s

lawfully imposed sentence does not exceed the statutory maximum
sentence, Barnes’s appeal waiver remains valid and enforceable and
his motion remains waived under the terms of his plea agreement.

BARNES’S RESPONSE
In response to the Government’s Motion to Dismiss, Barnes

34

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 35 of 43

cites United States v. Batchelder, 442 U.S. 114, 124 (1979), for
the proposition that “[w]hether to prosecute and what charge to
file or bring before the grand jury are decisions that generally
rest in the prosecution’s discretion.”

Barnes contends that the

prosecutor can choose to narrowly draw an indictment, and that this
is what happened in his case, limiting the ACCA analysis to
considering only the four prior convictions specifically stated in
the Indictment.

Further, Barnes claims that since the prosecutor

knowingly excluded the two additional priors (a Florida state
conviction for armed robbery (see PSR, p.7 ¶ 31) and a Florida
state conviction for aggravated battery (see PSR, p. 7 ¶ 31), the
prosecution’s reliance on these two additional prior convictions is
error for at least two reasons.
First, Barnes quotes United States v. Batchelder, 442 U.S.
114, 124 (1979): “Whether to prosecute and what charge to file or
bring before the grand jury are decisions that generally rest in
the prosecution’s discretion.” According to Barnes, the prosecutor
can choose to narrowly draw an indictment, as Barnes contends
happened here, to limit the ACCA analysis to considering only the
four prior convictions specifically stated in the Indictment.
Barnes objects that the prosecutor knowingly excluded the two
additional priors from the Indictment, and therefore he should not
be allowed to resurrect them for consideration in Barnes’s ACCA
analysis.

35

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 36 of 43

Second, Barnes contends that the prosecution ignores the
language of 18 U.S.C. § 924(e)(1), which states in part:
(e)(1) In the case of a person who violates
section 922(g) of this title and has three
previous convictions by any court referred to
in section 922(g)(1) of this title for a
violent felony or a serious drug offense, or
both, committed on occasions different from
one another, such person shall be fined under
this title and imprisoned not less than
fifteen years[.]
[Emphasis added by Barnes]
Barnes contends that under the emphasized language, prior
crimes must have occurred “on occasions different from one another”
to be counted as separate prior convictions in the ACCA analysis.
The PSR indicates that the two additional priors that the
prosecution seeks to inject into the analysis – convictions for
armed robbery and aggravated battery under Florida law – were
crimes committed at the same time as the Florida conviction for
kidnapping.

The kidnapping conviction is stated in the Indictment

as one of the prior convictions relied on by the prosecution for
ACCA

purposes,

so

it

is

Barnes’s

contention

that

the

prior

convictions for armed robbery and aggravated battery cannot be
considered in the analysis.
Barnes also challenges the prosecution’s use of the waiver of
appeal provision in Barnes’s Plea Agreement as barring Barnes’s §
2255 petition.

In support of his position, Barnes cites a recent

opinion by District Judge Henry Wingate finding that the waiver of

36

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 37 of 43

appeal provision does not bar a court from considering the merits
of a § 2255 petition based on the holdings in Samuel Johnson.

See

Ben v. United States, criminal no. 4:12-cr-11(HTW)(May 18, 2018).
As in the case sub judice, the petitioner in Ben sought a
sentence reduction under the holdings in Samuel Johnson. Likewise,
the prosecutor sought dismissal of the Petition based on the waiver
of appeal provision in Ben’s Plea Agreement.
prosecution’s

argument,

Judge

Wingate

held:

Rejecting the
“This

court

is

persuaded that this Fifth Circuit jurisprudence speaks to waiver
and holds that a defendant does not waive an unknown right at the
time of his plea agreement.

To find that Ben could not later

challenge an allegedly unconstitutional action based on law, made
retroactive after his own sentencing would not comport with the
fairness standards of the United States Constitution, nor would it
comport with Due Process.”

Ben, 4:12-cr-11, docket entry 29 at

p.6.
Based on Ben, Barnes urges this Court to find that Barnes’
waiver of appeal provision does not bar his § 2255 action.

THE GOVERNMENT’S REPLY
Concerning Barnes’s first argument, the Government contends
that this Court is not limited to the prior convictions identified
in Barnes’s indictment in determining whether his sentence was
properly enhanced under the ACCA.

37

Barnes cites no legal authority

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 38 of 43

to support that argument, and his argument is contrary to existing
law.

Barnes’s

Response

ignores

prevailing

federal

law

as

pronounced by the United States Supreme Court in Almendarez-Torres
v. United States, 523 U.S. 224, 118 S.Ct. 1219, 140 L.Ed.2d 350
(1998)), and as recognized as authoritative in the Fifth Circuit in
United States v. Stapleton, 440 F.3d 700, n.1 (5th Cir. 2006)(“The
Supreme Court has held that recidivist provisions like those in the
Armed Career Criminal Act are neither substantive offenses nor
elements thereof and thus the fact of a prior conviction need not
be

alleged

in

an

indictment

nor

proven

beyond

a

reasonable

doubt.”)(citing Almendarez-Torres, supra).
To support his first argument, Barnes relies on a single
sentence in United States v. Batchelder, 442 U.S. 114, 124, 99
S.Ct. 2198, 2204 (1979), which states, “Whether to prosecute and
what charge to file or bring before a grand jury are decisions that
generally rest in the prosecutor’s discretion.”

No issue has been

presented to this Court concerning the propriety of Barnes’s
underlying prosecution for violation of 18 U.S.C. § 922(g)(1) based
upon the offense conduct in this case.

(See PSR, ¶¶ 6-12).

Nothing in Batchelder addresses the sentencing issues faced by this
Court.

However, from this lone sentence in Batchelder, Barnes

extrapolates his argument that Batchelder somehow requires this
Court to erase from consideration any criminal history other than
those convictions listed in Barnes’s indictment. Barnes’s argument

38

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 39 of 43

is

foreclosed

by

Almendarez-Torres

and

by

Stapleton, 440 F.3d 700, n.1 (5th Cir. 2006).
reading

within

Batchelder

exposes

the

United

States

v.

Moreover, further

decoupling

of

Barnes’s

extrapolated argument to limit his sentencing exposure:
Just as a defendant has no constitutional
right to elect which of two applicable federal
statutes shall be the basis of his indictment
and prosecution, neither is he entitled to
choose the penalty scheme under which he will
be sentenced.
Batchelder, 99 S.Ct. at 2205.
Barnes’s second argument on this issue, that other convictions
referenced in his PSR cannot be considered alternatively because
they were committed at the same time as the Florida kidnapping
conviction, appears to rest upon his apparent misreading of the
United States’ Amended Motion to Dismiss, wherein the United States
argues that “[i]n lieu of” the kidnapping conviction, either
Barnes’s Florida Armed Robbery conviction or his Florida Aggravated
Battery conviction readily could be substituted into the Court’s
ACCA analysis.

Notably, Barnes raises no constitutional challenge

concerning either of these convictions.
In Barnes’s Response (docket entry 40, p.5), his argument
against the enforceability of his appeal waiver rests on the recent
district court opinion by Judge Wingate in Ben, supra, which
involved different facts and legal arguments.

Barnes claims

similarity between his case and Ben. However, reviewing the record
in Ben reveals no similarity apart from the United States’ desire
39

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 40 of 43

to enforce the appeal waiver and the Petitioner’s desire to defeat
it.

Comparing the briefs in Ben to those presented to this Court

reveals that the defense presented an almost verbatim argument to
Judge Wingate as it has presented in the case at bar.

Barnes’s

citation to this opinion suggests that Judge Wingate found the
defense analysis and legal authority to be persuasive, but in fact
those arguments were rejected by Judge Wingate.
Petitioner Ben relied on United States v. Torres, 828 F.3d
1113, 1124-25 (9th Cir. 2016) and United States v. McBride, 826 F.3d
293, 295-96 (6th Cir. 2016), both of which the United States
distinguished from the case at bar in the Government’s Amended
Motion to Dismiss.

(docket entry 39, pp.23-26).

Notably, Judge

Wingate declined to follow both Torres and McBride, and instead
reached his decision based on United States v. Wright, 681 Fed.
App’x 418, 420 (5th Cir. 2017), quoting the following passage:
Waiver occurs when a party intentionally
abandons a right that is known.”
United
States v. Traxler, 390 Fed. App’x, 363, 367
(5th Cir. 2010)(citing United States v. ArvisoMata, 442 F.3d 382, 384 (5th Cir. 2006)).
Where, as here, a right is established by
precedent that does not exist at the time of
purported waiver, a party cannot intentionally
relinquish that right because it is unknown at
that time.
Id.; see also, e.g. Smith v.
Blackburn, 632 F.2d 1194, 1195 (5th Cir. 1980).
Based upon the record that was before him, Judge Wingate
resolved the appeal waiver issue solely on the fact that the
constitutional right Ben sought to enforce arose after he executed

40

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 41 of 43

his plea agreement and, therefore, Ben did not knowingly waive it.
Judge Wingate then moved directly to the merits of Ben’s motion to
vacate,

denying

the

motion

for

failure

to

demonstrate

a

constitutional injury. Review of the pleadings and briefs filed in
Ben reveals that Judge Wingate was presented with different facts
and legal arguments than those presented to this Court in Barnes’s
case.

Those differences dictate a different result in Barnes’s

case, as the United States discussed in its Motion to Dismiss
(docket entry 36, pp.7-10) and Amended Motion to Dismiss (docket
entry 39, pp.20-26).
Barnes cannot avoid the consequences of the appeal and postconviction waiver in his plea agreement based on Samuel Johnson,
because that decision does not apply in Barnes’s case.

Absent the

applicability of Samuel Johnson, Barnes has no basis to claim that
his appeal and post-conviction waiver is unenforceable.

Since

Barnes does not reap the benefit of Samuel Johnson, he has no newly
recognized constitutional right that arose after the executed his
plea agreement. Thus, United States v. Wright, 681 Fed. App’x 428,
420 (5th Cir. 2017) does not salvage Barnes’s argument, and his
appeal and post-conviction waiver in his plea agreement remains
enforceable.
The unavailability of Samuel Johnson has another consequence
for Barnes. Because (consistent with his appeal waiver) he did not
appeal, his conviction became final in November of 2013 (docket

41

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 42 of 43

entries 24,25).

See United States v. Scruggs, 691 F.3d 660, 669

(5th Cir. 2012)(“When a defendant does not file a direct appeal, his
conviction becomes final on the day when the time for filing a
direct appeal expires.”). Barnes had one year in which to file for
§ 2255 relief, which means his deadline for seeking post-conviction
relief expired a year later in 2014.
must

file

for

relief

within

conviction becomes final).

one

Id. (§ 2255 movant generally
year

of

the

date

when

his

Without the applicability of Samuel

Johnson, Barnes is unable to benefit from retroactive application
of that decision.

See Welch v. United States, 136 S. Ct. 1257,

1268 (2016)(Samuel Johnson retroactive to cases on collateral
review).
The Court finds that Barnes’s claim is untimely.
further

finds

that

Barnes

previously

waived

his

The Court
right

to

collaterally attack his sentence in a § 2255 motion; that he failed
to demonstrate that he was entitled to proceed under the auspices
and parameters of the Samuel

Johnson

decision; and that his

argument under the Curtis Johnson decision is both untimely and
procedurally barred.

In conclusion, the Court agrees with the

Government that Barnes’s § 2255 motion must be dismissed.
ACCORDINGLY,
IT IS HEREBY ORDERED AND ADJUDGED that the first Motion to
Dismiss (docket entry 36) and second Motion to Dismiss (docket
entry 39) filed by the United States of America are GRANTED;

42

Case 3:13-cr-00038-DCB-LRA Document 42 Filed 07/06/18 Page 43 of 43

IT IS FURTHER ORDERED AND ADJUDGED that Petitioner Barnes’s
Petition Under 28 U.S.C. § 2255 to Vacate, Set Aside or Correct
Sentence by a Person in Federal Custody (docket entry 30) is
DISMISSED as untimely and as procedurally barred.
SO ORDERED AND ADJUDGED, this the 6th day of July, 2018.

/s/ David Bramlette
UNITED STATES DISTRICT JUDGE

43

APPENDIX 2

Case: 18-60497

Document: 00515355768

Page: 1

Date Filed: 03/23/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-60497

FILED
March 23, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff–Appellee,
versus
MICHAEL JAMES BARNES,
Defendant–Appellant.

Appeal from the United States District Court
for the Southern District of Mississippi

Before JOLLY, SMITH, and STEWART, Circuit Judges.
JERRY E. SMITH, Circuit Judge:
Per a plea agreement, Michael Barnes pleaded guilty, waived his right
to challenge his conviction and sentence (both directly and collaterally), and
was sentenced under the Armed Career Criminal Act (“ACCA”).

Then in

Johnson v. United States, 135 S. Ct. 2551 (2015), the Court held ACCA’s residual clause unconstitutional. Based on Johnson, Barnes filed a 28 U.S.C. § 2255
motion to vacate his sentence. The district court dismissed his challenge, and

Case: 18-60497

Document: 00515355768

Page: 2

Date Filed: 03/23/2020

No. 18-60497
Barnes appeals. Because Barnes’s petition is barred by the collateral-review
waiver in his plea agreement, we dismiss the appeal.
I.
In July 2013, Barnes pleaded guilty of being a felon in possession of a
firearm in violation of 18 U.S.C. § 922(g)(1). The plea agreement identified
four of Barnes’s past convictions that constituted either “violent felon[ies]” or
“serious drug offense[s],” which triggered ACCA’s mandatory minimum sentence of fifteen years. Id. § 924(e)(1).
As part of the plea agreement, Barnes agreed to waive his “right to
contest the conviction and sentence or the manner in which the sentence was
imposed in any post-conviction proceeding, including but not limited to a
motion brought under Title 28, United States Code, Section 2255 . . . .” Barnes
waived that right, among others, “in exchange for the United States Attorney
entering into this Plea Agreement and accompanying Plea Agreement Supplement.” 1 The district court accepted Barnes’s plea and sentenced him to the
fifteen-year mandatory minimum. Barnes didn’t appeal.
In June 2015, the Supreme Court held that one of ACCA’s clauses
defining what constitutes a “violent felony”—§ 924(e)(2)(B)(ii), also called
§ 924(e)(2)(B)’s residual clause—was unconstitutionally vague. See Johnson,
135 S. Ct. at 2557.

About three months later—and notwithstanding his

collateral-review waiver promising not to do so—Barnes filed a § 2255 motion
challenging his sentence as “imposed in violation of the Constitution” because,
after Johnson, he had no longer been convicted of the three necessary violent
The U.S. Attorney agreed to recommend the fifteen-year mandatory minimum,
which was a below-guidelines sentence based on Barnes’s criminal history and significantly
lower than the statutory maximum of life. The U.S. Attorney also agreed not to prosecute
Barnes for any other conduct “arising out of any event covered by the Indictment” that Barnes
disclosed before accepting the plea agreement.
1

2

Case: 18-60497

Document: 00515355768

Page: 3

Date Filed: 03/23/2020

No. 18-60497
felonies or serious drug offenses. The government opposed his challenge on
two grounds: (1) Johnson didn’t apply, and thus Barnes’s petition was untimely, because his sentence could be sustained under another of ACCA’s
definitions of “violent felony”; and (2) Barnes’s collateral-review waiver barred
his § 2255 petition.
The district court dismissed Barnes’s petition. The court found that
(1) “Barnes previously waived his right to collaterally attack his sentence in a
§ 2255 motion,” (2) “he failed to demonstrate that he was entitled to proceed
under the auspices and parameters of [Johnson],” and (3) his contention that
he didn’t have the requisite number of “violent felonies” was “both untimely
and procedurally barred.” The court also rejected Barnes’s “miscarriage of justice” contention. The district court denied Barnes a certificate of appealability,
but a judge of this court granted him one on two issues: (1) “whether Barnes’s
Johnson claims are barred by the collateral-review waiver” and (2) “whether
the district court erred by dismissing the § 2255 motion as time-barred based
on its determination that Johnson did not affect his sentence under the ACCA.”
II.
We review de novo whether a collateral-review waiver bars an appeal. 2
We consider “(1) whether the waiver was knowing and voluntary and
(2) whether the waiver applies to the circumstances at hand, based on the plain
language of the agreement.” United States v. Kelly, 915 F.3d 344, 348 (5th Cir.
2019). “A waiver is knowing and voluntary if the defendant knows that he has
the right to collateral review and that he is waiving it in the plea agreement.”3
See United States v. Timothy Burns, 770 F. App’x 187, 189 (5th Cir.) (per curiam),
cert. denied, 140 S. Ct. 279 (2019); see also Gaylord v. United States, 829 F.3d 500, 505 (7th
Cir. 2016) (“We review de novo the enforceability of a plea agreement’s waiver of direct or
collateral review.”).
2

3

Timothy Burns, 770 F. App’x at 190; see also Kelly, 915 F.3d 344, 348 (“For a waiver

3

Case: 18-60497

Document: 00515355768

Page: 4

Date Filed: 03/23/2020

No. 18-60497
Though we construe waivers in plea agreements narrowly, United States v.
Pleitez, 876 F.3d 150, 156 (5th Cir. 2017), the government nonetheless “has a
strong and legitimate interest in both the finality of convictions and in the
enforcement of plea bargains.” United States v. Dyer, 136 F.3d 417, 429 (5th
Cir. 1998) (footnote omitted).
Before considering Barnes’s contentions, it’s important to identify what
he isn’t challenging. He doesn’t dispute that he was aware of his right to collateral review or that he agreed to waive that right. Nor is he asserting that
the language of his waiver doesn’t apply to his Johnson-based challenge or that
his waivers were tainted by ineffective assistance of counsel. Instead, he posits
that his waiver is unenforceable for three reasons. First, he maintains that “a
defendant cannot waive a right that is unknown at the time that the waiver
provision is executed.” Second, relying on United States v. Torres, 828 F.3d
1113 (9th Cir. 2016), he avers that he can’t waive his right to challenge an
illegal or unconstitutional sentence. And finally, we could adopt a “miscarriage
of justice” exception and refuse to enforce his waiver on that ground.
Unfortunately for Barnes, we already confronted—and rejected—each of
those positions in Timothy Burns, 770 F. App’x at 190–91. Barnes acknowledged as much in his reply brief. Though Timothy Burns is unpublished, “we
may consider the opinion as persuasive authority.” Light-Age, Inc. v. AshcroftSmith, 922 F.3d 320, 322 n.1 (5th Cir. 2019) (per curiam). And given the strong
support that its reasoning finds in our caselaw, Timothy Burns is instructive.
A.
Barnes’s contention that he couldn’t have waived a right that was

to be knowing and voluntary, a defendant must know that he had a right to appeal his sentence and that he was giving up that right.” (cleaned up)).

4

Case: 18-60497

Document: 00515355768

Page: 5

Date Filed: 03/23/2020

No. 18-60497
unknown at the time of his waiver is foreclosed by United States v. Creadell
Burns, 433 F.3d 442 (5th Cir. 2005). There, the defendant pleaded guilty,
waived his right to appeal, and was sentenced under the then-mandatory
sentencing guidelines. Id. at 443–44. After the Supreme Court held that the
mandatory guidelines violated the Sixth Amendment, 4 Creadell Burns contended that he couldn’t have waived his right to assert a Booker-based challenge on appeal because that case hadn’t yet been decided when he entered his
plea. See id. at 446–47. We rejected that position, holding instead that “an
otherwise valid appeal waiver is not rendered invalid, or inapplicable to an
appeal seeking to raise a Booker . . . issue (whether or not that issue would
have substantive merit), merely because the waiver was made before Booker.”
Id. at 450–51. Said differently, “a voluntary plea of guilty intelligently made
in the light of the then applicable law does not become vulnerable because later
judicial decisions indicate that the plea rested on a faulty premise.” Brady v.
United States, 397 U.S. 742, 757 (1970).
Barnes attempts to discount Creadell Burns by contending that it either
conflicts with or was called into doubt by (1) Smith v. Blackburn, 632 F.2d 1194
(5th Cir. Unit A 1980) (per curiam), (2) United States v. Wright, 681 F. App’x
418 (5th Cir. 2017) (per curiam), (3) three orders from the Southern District of
Mississippi, 5 and (4) United States v. McBride, 826 F.3d 293 (6th Cir. 2016).
None of those efforts is persuasive.
In Smith, 632 F.2d at 1195, a Louisiana defendant was offered two

United States v. Booker, 543 U.S. 220, 243–44 (2005) (opinion of Stevens, J.) (holding
that the mandatory guidelines violated the Sixth Amendment); id. at 245 (opinion of
Breyer, J.) (holding that provision making the guidelines mandatory was severable).
4

See United States v. Culpepper, No. 3:12-CR-00118-CWR-FKB-10, 2017 WL 658777
(S.D. Miss. Feb. 15, 2017); United States v. Tarrio, No. 3:08-CR-00001-TSL-LRA (S.D. Miss.
Mar. 13, 2017); United States v. Craven, 2:08-CR-00005-KS-MTP (S.D. Miss. Mar. 22, 2017).
5

5

Case: 18-60497

Document: 00515355768

Page: 6

Date Filed: 03/23/2020

No. 18-60497
choices: (1) a jury of six members who could convict by five votes or (2) a jury
of five members who could convict by a unanimous vote. The defendant chose
the latter, thereby waiving his right to the former. Id. After he was convicted,
the Supreme Court determined that both of those options were unconstitutional. 6 On appeal of his federal habeas petition, this court held that Smith
hadn’t waive a “known right or privilege” because Ballew wasn’t decided until
three years after he was put to his choice. Id. But critically, and unlike this
case, there is no indication that the defendant in Smith agreed to an appellate
or collateral-review waiver. Smith is therefore inapposite.
Next, Barnes is correct that Wright held that “[w]here, as here, a right
is established by precedent that does not exist at the time of purported waiver,
a party cannot intentionally relinquish that right because it is unknown at that
time.” Wright, 681 F. App’x at 420. But Wright, which is unpublished, didn’t
cite or even consider the published opinion in Creadell Burns. And to the
extent the decisions conflict, Creadell Burns controls under our rule of orderliness. 7 The same naturally holds true for the three rulings from the Southern
District of Mississippi. 8
See Ballew v. Georgia, 435 U.S. 223, 245 (1978) (Blackmun, J., announcing the judgment of the Court) (“Petitioner, therefore, has established that his trial on criminal charges
before a five-member jury deprived him of the right to trial by jury guaranteed by the Sixth
and Fourteenth Amendments.”); Burch v. Louisiana, 441 U.S. 130, 138 (1979) (holding that
Sixth and Fourteenth Amendments required “verdicts rendered by six-person juries to be
unanimous”).
6

See Jacobs v. Nat’l Drug Intell. Ctr., 548 F.3d 375, 378 (5th Cir. 2008) (“It is a wellsettled Fifth Circuit rule of orderliness that one panel of our court may not overturn another
panel’s decision, absent an intervening change in the law, such as by a statutory amendment,
or the Supreme Court, or our en banc court.”); see also Dick v. Colo. Hous. Enters., L.L.C.,
872 F.3d 709, 711–12 (5th Cir. 2017) (per curiam) (refusing to apply an unpublished decision
when doing so would conflict with a published case).
7

Even if those decisions could call Creadell Burns’s rule into doubt, the reasoning
undergirding them flatly doesn’t. In Culpepper, 2017 WL 658777 at *2, the court stated only
that it “denie[d] the Government’s motion to dismiss and f[ound] it appropriate to reach the
merits of Culpepper’s motion.” It offered no explanation for why it refused to enforce the
8

6

Case: 18-60497

Document: 00515355768

Page: 7

Date Filed: 03/23/2020

No. 18-60497
Finally, even if, hypothetically, an out-of-circuit decision could trump
Creadell Burns, McBride doesn’t provide any help to Barnes. In McBride,
826 F.3d at 295, the Sixth Circuit did find that the defendant “could not have
intentionally relinquished a claim based on Johnson.” “But the McBride plea
agreement, unlike the one here, did not include an appeal waiver.” United
States v. Morrison, 852 F.3d 488, 491 (6th Cir. 2017). And based on that distinction, the Sixth Circuit held in Morrison that a defendant’s appellate waiver
barred his Johnson-based challenge, even though Johnson wasn’t decided until
after he was sentenced. Id.
At base, Barnes needn’t have understood all the possible eventualities
that could, in the future, have allowed him to challenge his conviction or sentence. His waiver only needed to be “knowing,” not “all-knowing.” When
Barnes waived his right to post-conviction review, he was aware of the right
that he was giving up. By doing so, “he assumed the risk that he would be
denied the benefit of future legal developments.” Id. Most other circuits have
reached the same conclusion when considering appellate or collateral-review
waivers in the context of Johnson-based challenges. 9

collateral-review waiver. The other two decisions didn’t even acknowledge whether the
government tried to enforce the collateral-review waivers at all.
See, e.g., United States v. Bey, 825 F.3d 75, 82–83 (1st Cir. 2016) (enforcing appellate
waiver to bar Johnson challenge, even after considering “miscarriage of justice” exception);
Sanford v. United States, 841 F.3d 578, 581 (2d Cir. 2016) (per curiam) (“Sanford’s collateral
attack waiver therefore bars the present motion because the waiver encompasses any challenge to his sentence.”); In re Garner, 664 F. App’x 441, 442 (6th Cir. 2016) (“[W]e must deny
Garner’s motion for the same reason he lost his direct appeal and his § 2255 action: Garner
waived his right to challenge his sentence collaterally in his plea agreement.”); United States
v. Ford, 641 F. App’x 650, 651 (8th Cir. 2016) (per curiam) (enforcing appeal waiver to bar
defendant’s Johnson challenge); United States v. Hurtado, 667 F. App’x 291, 292 (10th Cir.
2016) (per curiam) (“The government unequivocally establishes that the [Johnson-based]
appeal falls within the scope of the waiver, the waiver was knowing and voluntary, and enforcing the waiver will not result in a miscarriage of justice.”). But see Torres, 828 F.3d
at 1125 (refusing to enforce appeal waiver on the ground that such waivers don’t apply “a
defendant’s sentence is ‘illegal,’ which includes a sentence that ‘violates the Constitution’”);
9

7

Case: 18-60497

Document: 00515355768

Page: 8

Date Filed: 03/23/2020

No. 18-60497
B.
Barnes’s theory that he can’t waive his right to challenge an illegal or
unconstitutional sentence is similarly foreclosed by precedent. We have recognized only two exceptions to the general rule that knowing and voluntary
appellate and collateral-review waivers are enforceable: first, ineffective
assistance of counsel, United States v. White, 307 F.3d 336, 339 (5th Cir. 2002),
and second, a sentence exceeding the statutory maximum. 10
Barnes invokes neither exception but, instead, avers that his sentence
was imposed unlawfully because, after Johnson, it violated the Constitution.
Unfortunately for Barnes, however, that doesn’t get him out from under the
collateral-review waiver to which he agreed. As the Timothy Burns panel recognized, defendants can waive the right to challenge both illegal and unconstitutional sentences. 11 Barnes’s reliance on Torres is misplaced. The fact that
United States v. Cornette, 932 F.3d 204, 210 (4th Cir. 2019) (“[W]e may review Cornette’s
sentencing challenge [under Johnson] notwithstanding the appeal waiver.”).
See United States v. Leal, 933 F.3d 426, 431 (5th Cir.), cert. denied, 140 S. Ct. 628
(2019). Leal appears to be the first published case, in this circuit, specifically to adopt that
exception, but a past panel purported to adopt it in an unpublished decision. See United
States v. Hollins, 97 F. App’x 477, 479 (5th Cir. 2004) (per curiam). The government brought
Hollins to the attention of the district court and Barnes in its motion to dismiss. Nonetheless,
Barnes didn’t cite Hollins or make any argument—in either his district-court briefing or on
appeal—that his sentence exceeded the applicable statutory maximum. To the extent that
Barnes tried to claim the benefit of Leal at oral argument, he had already forfeited any opportunity to do so. Cf. Arsement v. Spinnaker Expl. Co., 400 F.3d 238, 247 (5th Cir. 2005) (“No
authority need be cited for the rule that, generally, we do not consider an issue first raised at
oral argument on appeal.”).
10

See Timothy Burns, 770 F. App’x at 190; see also Kelly, 915 F.3d at 347 (holding that
defendant’s appeal waiver barred court from considering his claim that the district court
improperly “appl[ied] the ACCA enhancement because he lacks the requisite number of violent felony predicates”); United States v. Keele, 755 F.3d 752, 757 (5th Cir. 2014) (“Here,
because the appeal waiver in Keele’s signed, written plea agreement waived his right to
appeal his sentence with only three specific exceptions, none of which apply here, we conclude
that his Eighth Amendment claims are also waived.” (footnote omitted)); United States v.
Portillo-Munoz, 643 F.3d 437, 442 (5th Cir. 2011) (holding that defendant’s appellate waiver
barred challenge to statute of conviction on Fifth Amendment grounds, because his plea
agreement reserved only his right to challenge the statute on Second Amendment grounds);
11

8

Case: 18-60497

Document: 00515355768

Page: 9

Date Filed: 03/23/2020

No. 18-60497
Ninth Circuit caselaw runs counter to ours doesn’t empower us to refuse to
apply binding precedent.
C.
Finally, Barnes spends two paragraphs suggesting that we can refuse to
enforce his waiver by applying a “miscarriage of justice” exception. Though
some other circuits recognize such an exception, we have declined explicitly
either to adopt or to reject it. See United States v. Ford, 688 F. App’x 309, 309
(5th Cir. 2017) (per curiam). Barnes does not, however, (1) explain the proper
scope of that exception, (2) cite any cases purporting to do so, or (3) detail how
and why it should apply to his case. 12 By only briefly alluding to that theory,
Barnes has waived any contention that such an exception applies. See United
States v. Scroggins, 599 F.3d 433, 446–47 (5th Cir. 2010). When confronted
with a similarly phrased argument, the Timothy Burns panel, 770 F. App’x
at 191, reached the same conclusion.
Barnes’s § 2255 motion is barred by his collateral-review waiver. The
appeal is DISMISSED.

United States v. Baty, 980 F.2d 977, 979 (5th Cir. 1992) (“After waiving her right to appeal,
the district court could err in its application of the Sentencing Guidelines or otherwise impose
an illegal sentence. . . . Yet, the defendant, who has waived her right to appeal, cannot appeal
these errors.”).
Barnes states merely that “[m]any defendants” have had their sentences reduced
under Johnson and that it would be “patently unjust and unfair” to deny him relief because
he agreed to a collateral-review waiver. But he doesn’t offer any explanation of why it’s unfair
to treat defendants who agree to waive their rights differently from those who don’t.
12

9

Case: 18-60497

Document: 00515355768

Page: 10

Date Filed: 03/23/2020

No. 18-60497
E. GRADY JOLLY, Circuit Judge, dissenting:
I dissent because I respectfully disagree with the majority’s disregarding
a binding and precedential decision of this court: United States v. Leal, 933
F.3d 426 (5th Cir. 2019).
The majority dismisses Appellant’s Leal argument on the grounds that
he did not raise it in the district court nor in his briefing to this court. See
footnote 10 (“To the extent that Barnes tried to claim the benefit of Leal at oral
argument, he had already forfeited any opportunity to do so.”). A flimsy reason
indeed when Leal had not been decided at the time of briefing in the district
court or in this court. Yet the majority thus holds that by failing in his briefing
to cite Leal—which was impossible for Barnes or anyone else to have known—
Barnes somehow “forfeited” the right to raise Leal at oral argument.
“Forfeiture is the failure to make the timely assertion of a right.” United
States v. Arviso-Mata, 442 F.3d 382, 384 (5th Cir. 2006). Yet, at oral argument
was timely here. Even assuming a forfeiture, however, “[f]orfeited errors are
reviewed under the plain error standard.” Id. The majority, nevertheless, fails
to apply plain error review to Barnes’s Leal claim, effectively treating it as
waived. “[W]aiver is the intentional relinquishment of a known right.” Id. I
repeat myself to say that at the time of briefing, Leal was not a known right.
In short, I would join Judge Smith and his panel in DSC Commc’ns Corp. v.
Next Level Commc’ns, 107 F.3d 322 (5th Cir. 1997), which said it was
“unwilling to . . . perpetuate incorrect law, merely because [a precedent] was
decided after briefing . . . in this case.” Id. at 326 n.2.
It would seem to me that the panel is obligated to address Leal as it
applies to this case. I therefore respectfully dissent.

10

Case: 18-60497

Document: 00515355805

Page: 1

Date Filed: 03/23/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 18-60497
_______________________
D.C. Docket No. 3:15-CV-682

United States Court of Appeals
Fifth Circuit

FILED
March 23, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
MICHAEL JAMES BARNES,
Defendant - Appellant
Appeal from the United States District Court
for the Southern District of Mississippi
Before JOLLY, SMITH, and STEWART, Circuit Judges.

JUDGMENT
This cause was considered on the record on appeal and was argued by
counsel.
It is ordered and adjudged that the appeal is dismissed.
E. GRADY JOLLY, Circuit Judge, dissenting.

APPENDIX 3

United States v. Barnes, 953 F.3d 383 (2020)

The Court of Appeals reviews de novo whether a
collateral-review waiver in a plea agreement bars

KeyCite Yellow Flag - Negative Treatment
Distinguished by Thompson v. United States, N.D.Tex., April 17, 2020

a motion to vacate sentence.
2255.

953 F.3d 383
United States Court of Appeals, Fifth Circuit.
UNITED STATES of America, Plaintiff–Appellee,
v.
Michael James BARNES, Defendant–Appellant.

[2]

In determining whether a collateral-review
waiver in a plea agreement bars a motion to
vacate sentence, the Court of Appeals considers:
(1) whether the waiver was knowing and
voluntary, and (2) whether the waiver applies to
the circumstances at hand, based on the plain

Synopsis
Background: Defendant, who had entered a negotiated guilty
plea to being a felon in possession of a firearm, filed motion
to vacate sentence, relating to enhancement of his sentence
under Armed Career Criminal Act (ACCA). The United
States District Court for the Southern District of Mississippi,
David C. Bramlette, Senior District Judge, dismissed the
motion. Defendant appealed.

its decision in
ACCA.

language of the plea agreement.
§ 2255.

[3]

Criminal Law
contendere plea

Effect of guilty or nolo

110 Criminal Law
110XXX Post-Conviction Relief
110XXX(A) In General
110k1434 Effect of guilty or nolo contendere plea

Johnson v. United States, concerning the

A collateral-review waiver in a plea agreement
is knowing and voluntary if the defendant knows
that he has the right to collateral review and that
he is waiving it in the plea agreement.

Jolly, Senior Circuit Judge, filed a dissenting opinion.
Procedural Posture(s): Appellate Review; Post-Conviction
Review.

1 Cases that cite this headnote
[4]

Criminal Law
Representations, promises,
or coercion; plea bargaining
Criminal Law
contendere plea

West Headnotes (13)
Criminal Law

28 U.S.C.A.

1 Cases that cite this headnote

Appeal dismissed.

[1]

Effect of guilty or nolo

110 Criminal Law
110XXX Post-Conviction Relief
110XXX(A) In General
110k1434 Effect of guilty or nolo contendere plea

No. 18-60497
|
FILED March 23, 2020

[Holding:] The Court of Appeals, Smith, Circuit Judge,
held that defendant's collateral-review waiver in his plea
agreement was knowing and voluntary, even though
defendant had not known that the Supreme Court would issue

Criminal Law
contendere plea

28 U.S.C.A. §

Review De Novo

110 Criminal Law
110XXIV Review
110XXIV(L) Scope of Review in General
110XXIV(L)13 Review De Novo
110k1139 In general

Effect of guilty or nolo

110 Criminal Law
110XV Pleas
110k272 Plea of Guilty
110k273.1 Voluntary Character
110k273.1(2) Representations, promises, or
coercion; plea bargaining
110 Criminal Law
110XXX Post-Conviction Relief

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Barnes, 953 F.3d 383 (2020)

ACCA was unconstitutionally vague under due

110XXX(A) In General
110k1434 Effect of guilty or nolo contendere plea

While collateral-review waivers in plea
agreements are construed narrowly, the
government nonetheless has a strong and
legitimate interest in both the finality of
convictions and in the enforcement of plea
bargains.

[5]

Courts

process principles. U.S. Const. Amend. 5;
U.S.C.A. § 924(e)(2)(B)(ii);
2255.

[8]

Voluntary Character

110 Criminal Law
110XV Pleas
110k272 Plea of Guilty
110k273.1 Voluntary Character
110k273.1(1) In general

[9]

Criminal Law
contendere plea

Defendant's collateral-review waiver in his plea
agreement was knowing and voluntary and
therefore it barred defendant's motion to vacate
sentence, which challenged enhancement of his
sentence under the Armed Career Criminal Act
(ACCA), though defendant had not known when
he entered into plea agreement that the Supreme
Court would issue its decision in
Johnson
v. United States, which held that the residual
clause of definition of violent felony in the

Effect of guilty or nolo

When defendant, with awareness of the right he
was giving up, waived in his plea agreement his
right to post-conviction review, he assumed the
risk that he would be denied the benefit of future
legal developments.
1 Cases that cite this headnote

Effect of guilty or nolo

110 Criminal Law
110XXX Post-Conviction Relief
110XXX(A) In General
110k1434 Effect of guilty or nolo contendere plea

Criminal Law
contendere plea

110 Criminal Law
110XXX Post-Conviction Relief
110XXX(A) In General
110k1434 Effect of guilty or nolo contendere plea

A voluntary plea of guilty, intelligently made
in the light of the then applicable law, does
not become vulnerable because later judicial
decisions indicate that the plea rested on a faulty
premise.

[7]

Effect of guilty or nolo

Collateral-review waiver in defendant's plea
agreement needed only to be knowing, not
all-knowing, and defendant need not have
understood all the possible eventualities that
could, in the future, have allowed him to
challenge his conviction or sentence.

A panel of the Court of Appeals may
consider another panel's unpublished opinion as
persuasive authority.

Criminal Law

28 U.S.C.A. §

110 Criminal Law
110XXX Post-Conviction Relief
110XXX(A) In General
110k1434 Effect of guilty or nolo contendere plea

Operation and effect in general

106 Courts
106II Establishment, Organization, and Procedure
106II(K) Opinions
106k107 Operation and effect in general

[6]

Criminal Law
contendere plea

18

[10]

Criminal Law
Contendere

Plea of Guilty or Nolo

Criminal Law
contendere plea

Effect of guilty or nolo

110 Criminal Law
110XXIV Review
110XXIV(D) Right of Review
110k1025 Right of Defendant to Review
110k1026.10 Waiver or Loss of Right
110k1026.10(2) Plea of Guilty or Nolo
Contendere
110k1026.10(2.1) In general
110 Criminal Law
110XXX Post-Conviction Relief

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Barnes, 953 F.3d 383 (2020)
110XXX(A) In General
110k1434 Effect of guilty or nolo contendere plea

110k1025 Right of Defendant to Review
110k1026.10 Waiver or Loss of Right
110k1026.10(2) Plea of Guilty or Nolo
Contendere
110k1026.10(2.1) In general
110 Criminal Law
110XXX Post-Conviction Relief
110XXX(A) In General
110k1434 Effect of guilty or nolo contendere plea

Knowing and voluntary appeal waivers and
collateral-review waivers in plea agreements
are enforceable, except in cases of ineffective
assistance of counsel or a sentence exceeding the
statutory maximum. U.S. Const. Amend. 6.

[11]

Criminal Law

Post-conviction relief

Criminal Law

Points and authorities

110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and Reservation in
Lower Court of Grounds of Review
110XXIV(E)1 In General
110k1042.7 Proceedings After Judgment
110k1042.7(2) Post-conviction relief
110 Criminal Law
110XXIV Review
110XXIV(I) Briefs
110k1130 In General
110k1130(5) Points and authorities

Argument that defendant raised for first time at
oral argument at Court of Appeals was already
forfeited, i.e., argument under what appeared to
be the first published opinion from Court of
Appeals specifically adopting the exception, for
sentences exceeding the statutory maximum, to
general rule that knowing and voluntary appeal
waivers and collateral-review waivers in plea
agreements are enforceable, where in District
Court the government had brought to attention
of defendant and District Court an unpublished
Court of Appeals opinion purporting to adopt
the exception, yet defendant did not cite the
unpublished opinion or make any argument,
in either his District Court briefing or on
appeal, that his sentence exceeded the applicable
statutory maximum.

[12]

Criminal Law
Contendere

Plea of Guilty or Nolo

Criminal Law
contendere plea

Effect of guilty or nolo

110 Criminal Law
110XXIV Review
110XXIV(D) Right of Review

In appeal waivers and collateral-review waivers
in plea agreements, defendants can waive the
right to challenge both illegal sentences and
unconstitutional sentences.

[13]

Criminal Law

Points and authorities

110 Criminal Law
110XXIV Review
110XXIV(I) Briefs
110k1130 In General
110k1130(5) Points and authorities

Defendant, by only briefly alluding, in his
appellate briefing, to a miscarriage of justice
theory for refusing to enforce the collateralreview waiver in his plea agreement, waived
any contention that such an exception applied
to his motion to vacate sentence; defendant
merely stated that “[m]any defendants” had
their sentences reduced under Supreme Court's
decision in
Johnson v. United States, which
held that the residual clause of definition of
violent felony in Armed Career Criminal Act
(ACCA) was unconstitutionally vague under due
process principles, and defendant merely stated
that it would be “patently unjust and unfair” to
deny him relief because he agreed to a collateralreview waiver. U.S. Const. Amend. 5;
U.S.C.A. § 924(e)(2)(B)(ii);
2255.

18

28 U.S.C.A. §

West Codenotes
Recognized as Unconstitutional
18 U.S.C.A. § 924(e)(2)(B)(ii)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Barnes, 953 F.3d 383 (2020)

*383 Appeal from the United States District Court for the
Southern District of Mississippi, David C. Bramlette, III, U.S.
District Judge
Attorneys and Law Firms
Gregory Layne Kennedy, Esq., Carla J. Clark, Assistant
U.S. Attorneys, U.S. Attorney's Office, Southern District of
Mississippi, Jackson, MS, Eugene Carlos Tanner, III, Esq.,
Tanner & Associates, L.L.C., Jackson, MS, for PlaintiffAppellee

under
Title 28, United States Code, Section 2255 ....”
Barnes waived that right, among others, “in exchange for the
United States Attorney entering into this Plea Agreement and
accompanying Plea Agreement Supplement.” 1 The district
court accepted Barnes’s plea and sentenced him to the fifteenyear mandatory minimum. Barnes didn’t appeal.
1

Michael L. Scott, Esq., Thomas Creagher Turner, Jr.,
Esq., Federal Public Defender's Office, Southern District of
Mississippi, Jackson, MS, for Defendant-Appellant
Before JOLLY, SMITH, and STEWART, Circuit Judges.
Opinion

The U.S. Attorney agreed to recommend the
fifteen-year mandatory minimum, which was
a below-guidelines sentence based on Barnes’s
criminal history and significantly lower than the
statutory maximum of life. The U.S. Attorney
also agreed not to prosecute Barnes for any other
conduct “arising out of any event covered by the
Indictment” that Barnes disclosed before accepting
the plea agreement.

JERRY E. SMITH, Circuit Judge:

In June 2015, the Supreme Court held that one of ACCA’s
clauses defining what constitutes a “violent felony”—§
924(e)(2)(B)(ii), also called § 924(e)(2)(B)’s residual clause

*385 Per a plea agreement, Michael Barnes pleaded guilty,
waived his right to challenge his conviction and sentence
(both directly and collaterally), and was sentenced under the

—was unconstitutionally vague. See
Johnson, 135 S. Ct.
at 2557. About three months later—and notwithstanding his
collateral-review waiver promising not to do so—Barnes filed

Armed Career Criminal Act (“ACCA”). Then in
Johnson
v. United States, ––– U.S. ––––, 135 S. Ct. 2551, 192
L.Ed.2d 569 (2015), the Court held ACCA’s residual clause

a

unconstitutional. Based on
Johnson, Barnes filed a
28
U.S.C. § 2255 motion to vacate his sentence. The district
court dismissed his challenge, and Barnes appeals. Because
Barnes’s petition is barred by the collateral-review waiver in
his plea agreement, we dismiss the appeal.

§ 2255 motion challenging his sentence as “imposed in

violation of the Constitution” because, after
Johnson, he
had no longer been convicted of the three necessary violent
felonies or serious drug offenses. The government opposed
his challenge on two grounds: (1)
Johnson didn’t apply,
and thus Barnes’s petition was untimely, because his sentence
could be sustained under another of ACCA’s definitions of
“violent felony”; and (2) Barnes’s collateral-review waiver
barred his

I.
In July 2013, Barnes pleaded guilty of being a felon in
possession of a firearm in violation of
18 U.S.C. §
922(g)(1). The plea agreement identified four of Barnes’s
past convictions that constituted either “violent felon[ies]”
or “serious drug offense[s],” which triggered ACCA’s
mandatory minimum sentence of fifteen years. Id. § 924(e)
(1).
As part of the plea agreement, Barnes agreed to waive his
“right to contest the conviction and sentence or the manner
in which the sentence was imposed in any post-conviction
proceeding, including but not limited to a motion brought

§ 2255 petition.

The district court dismissed Barnes’s petition. The court
found that (1) “Barnes *386 previously waived his right to
collaterally attack his sentence in a
§ 2255 motion,” (2)
“he failed to demonstrate that he was entitled to proceed under
the auspices and parameters of [ Johnson],” and (3) his
contention that he didn’t have the requisite number of “violent
felonies” was “both untimely and procedurally barred.”
The court also rejected Barnes’s “miscarriage of justice”
contention. The district court denied Barnes a certificate of
appealability, but a judge of this court granted him one on two
issues: (1) “whether Barnes’s
Johnson claims are barred
by the collateral-review waiver” and (2) “whether the district

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Barnes, 953 F.3d 383 (2020)

court erred by dismissing the

§ 2255 motion as time-barred

based on its determination that
sentence under the ACCA.”

Johnson did not affect his

v. Torres, 828 F.3d 1113 (9th Cir. 2016), he avers that he
can’t waive his right to challenge an illegal or unconstitutional
sentence. And finally, we could adopt a “miscarriage of
justice” exception and refuse to enforce his waiver on that
ground.
[5] Unfortunately for Barnes, we already confronted—and

II.

rejected—each of those positions in Timothy Burns, 770 F.
[4] We review de novo whether a collateralApp'x at 190–91. Barnes acknowledged as much in his reply
review waiver bars an appeal. 2 We consider “(1) whether
brief. Though
Timothy Burns is unpublished, “we may
the waiver was knowing and voluntary and (2) whether the
waiver applies to the circumstances at hand, based on the plain
consider the opinion as persuasive authority.”
Light-Age,
language of the agreement.” United States v. Kelly, 915 F.3d
Inc. v. Ashcroft-Smith, 922 F.3d 320, 322 n.1 (5th Cir. 2019)
344, 348 (5th Cir. 2019). “A waiver is knowing and voluntary
(per curiam). And given the strong support that its reasoning
if the defendant knows that he has the right to collateral
finds in our caselaw,
Timothy Burns is instructive.
review and that he is waiving it in the plea agreement.” 3
Though we construe waivers in plea agreements narrowly,
United States v. Pleitez, 876 F.3d 150, 156 (5th Cir. 2017), the
A.
government nonetheless “has a strong and legitimate interest
in both the finality of convictions and in the enforcement of
[6] Barnes’s contention that he couldn’t have waived a
right that was unknown *387 at the time of his waiver is
plea bargains.”
United States v. Dyer, 136 F.3d 417, 429
(5th Cir. 1998) (footnote omitted).
foreclosed by
United States v. Creadell Burns, 433 F.3d
442 (5th Cir. 2005). There, the defendant pleaded guilty,
2
waived his right to appeal, and was sentenced under the thenSee
United States v. Timothy Burns, 770 F.
mandatory sentencing guidelines.
Id. at 443–44. After the
App'x 187, 189 (5th Cir.) (per curiam), cert. denied,
Supreme Court held that the mandatory guidelines violated
––– U.S. ––––, 140 S. Ct. 279, 205 L.Ed.2d 185
[1]

[2]

[3]

(2019); see also
Gaylord v. United States, 829
F.3d 500, 505 (7th Cir. 2016) (“We review de novo
the enforceability of a plea agreement’s waiver of
direct or collateral review.”).
3

Timothy Burns, 770 F. App'x at 190; see also
Kelly, 915 F.3d 344, 348 (“For a waiver to be
knowing and voluntary, a defendant must know that
he had a right to appeal his sentence and that he was
giving up that right.” (cleaned up)).

Before considering Barnes’s contentions, it’s important to
identify what he isn’t challenging. He doesn’t dispute that he
was aware of his right to collateral review or that he agreed
to waive that right. Nor is he asserting that the language of
his waiver doesn’t apply to his
Johnson-based challenge
or that his waivers were tainted by ineffective assistance of
counsel. Instead, he posits that his waiver is unenforceable
for three reasons. First, he maintains that “a defendant cannot
waive a right that is unknown at the time that the waiver
provision is executed.” Second, relying on

United States

the Sixth Amendment, 4 Creadell Burns contended that he
couldn’t have waived his right to assert a
Booker-based
challenge on appeal because that case hadn’t yet been decided
when he entered his plea. See
id. at 446–47. We rejected
that position, holding instead that “an otherwise valid appeal
waiver is not rendered invalid, or inapplicable to an appeal
seeking to raise a
Booker ... issue (whether or not that
issue would have substantive merit), merely because the
waiver was made before
Booker.”
Id. at 450–51. Said
differently, “a voluntary plea of guilty intelligently made
in the light of the then applicable law does not become
vulnerable because later judicial decisions indicate that the
plea rested on a faulty premise.”
Brady v. United States,
397 U.S. 742, 757, 90 S.Ct. 1463, 25 L.Ed.2d 747 (1970).
4

United States v. Booker, 543 U.S. 220, 243–44,
125 S.Ct. 738, 160 L.Ed.2d 621 (2005) (opinion of
Stevens, J.) (holding that the mandatory guidelines

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Barnes, 953 F.3d 383 (2020)

violated the Sixth Amendment);
id. at 245, 125
S.Ct. 738 (opinion of Breyer, J.) (holding that
provision making the guidelines mandatory was
severable).
Barnes attempts to discount Creadell Burns by contending
that it either conflicts with or was called into doubt by (1)
Smith v. Blackburn, 632 F.2d 1194 (5th Cir. Unit A 1980)
(per curiam), (2)
United States v. Wright, 681 F. App'x
418 (5th Cir. 2017) (per curiam), (3) three orders from the

Amendments required “verdicts rendered by sixperson juries to be unanimous”).
Next, Barnes is correct that
Wright held that “[w]here, as
here, a right is established by precedent that does not exist
at the time of purported waiver, a party cannot intentionally
relinquish that right because it is unknown at that time.”
Wright, 681 F. App'x at 420. But
Wright, which is
unpublished, didn’t cite or even consider the published
opinion in

Creadell Burns. And to the extent the decisions

Southern District of Mississippi, 5 and (4) United States v.
McBride, 826 F.3d 293 (6th Cir. 2016). None of those efforts
is persuasive.

conflict,

Creadell Burns controls under our rule of *388

orderliness.

7

5

7

See
United States v. Culpepper, No. 3:12CR-00118-CWR-FKB-10, 2017 WL 658777 (S.D.
Miss. Feb. 15, 2017); United States v. Tarrio, No.
3:08-CR-00001-TSL-LRA (S.D. Miss. Mar. 13,
2017); United States v. Craven, 2:08-CR-00005KS-MTP (S.D. Miss. Mar. 22, 2017).

rulings from the Southern District of Mississippi. 8

In
Smith, 632 F.2d at 1195, a Louisiana defendant was
offered two choices: (1) a jury of six members who could
convict by five votes or (2) a jury of five members who
could convict by a unanimous vote. The defendant chose the
latter, thereby waiving his right to the former.
Id. After
he was convicted, the Supreme Court determined that both

8

6

of those options were unconstitutional. On appeal of his
federal habeas petition, this court held that Smith hadn’t

Id. But critically, and unlike this case, there is no indication

collateral-review waiver.
6

See
Jacobs v. Nat’l Drug Intell. Ctr., 548 F.3d
375, 378 (5th Cir. 2008) (“It is a well-settled
Fifth Circuit rule of orderliness that one panel
of our court may not overturn another panel’s
decision, absent an intervening change in the law,
such as by a statutory amendment, or the Supreme
Court, or our en banc court.”); see also Dick v.
Colo. Hous. Enters., L.L.C., 872 F.3d 709, 711–12
(5th Cir. 2017) (per curiam) (refusing to apply an
unpublished decision when doing so would conflict
with a published case).
Even if those decisions could call
Creadell
Burns’s rule into doubt, the reasoning undergirding
them flatly doesn’t. In
Culpepper, 2017 WL
658777 at *2, the court stated only that it “denie[d]
the Government’s motion to dismiss and f[ound]
it appropriate to reach the merits of Culpepper’s
motion.” It offered no explanation for why it
refused to enforce the collateral-review waiver.
The other two decisions didn’t even acknowledge
whether the government tried to enforce the
collateral-review waivers at all.

waive a “known right or privilege” because
Ballew
wasn’t decided until three years after he was put to his choice.

that the defendant in

The same naturally holds true for the three

Smith agreed to an appellate or
Smith is therefore inapposite.

See
Ballew v. Georgia, 435 U.S. 223, 245, 98
S.Ct. 1029, 55 L.Ed.2d 234 (1978) (Blackmun, J.,
announcing the judgment of the Court) (“Petitioner,
therefore, has established that his trial on criminal
charges before a five-member jury deprived him of
the right to trial by jury guaranteed by the Sixth and

Finally, even if, hypothetically, an out-of-circuit decision

Fourteenth Amendments.”); Burch v. Louisiana,
441 U.S. 130, 138, 99 S.Ct. 1623, 60 L.Ed.2d
96 (1979) (holding that Sixth and Fourteenth

the

could trump

Creadell Burns,

McBride doesn’t provide

any help to Barnes. In
McBride, 826 F.3d at 295, the
Sixth Circuit did find that the defendant “could not have
intentionally relinquished a claim based on

Johnson.” “But

McBride plea agreement, unlike the one here, did

not include an appeal waiver.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

United States v. Morrison,

6

United States v. Barnes, 953 F.3d 383 (2020)

852 F.3d 488, 491 (6th Cir. 2017). And based on that
distinction, the Sixth Circuit held in
defendant’s appellate waiver barred his
challenge, even though
he was sentenced.

waivers don’t apply “a defendant’s sentence is
‘illegal,’ which includes a sentence that ‘violates

Morrison that a

the Constitution’ ”);
United States v. Cornette,
932 F.3d 204, 210 (4th Cir. 2019) (“[W]e may
review Cornette’s sentencing challenge [under

Johnson-based

Johnson wasn’t decided until after

Id.

Johnson] notwithstanding the appeal waiver.”).

[7] [8] [9] At base, Barnes needn’t have understood all
B.
the possible eventualities that could, in the future, have
allowed him to challenge his conviction or sentence. His
[10]
[11] Barnes’s theory that he can’t waive his right
waiver only needed to be “knowing,” not “all-knowing.”
to
challenge
an illegal or unconstitutional sentence is
When Barnes waived his right to post-conviction review, he
similarly foreclosed by precedent. We have recognized only
was aware of the right that he was giving up. By doing so,
two exceptions to the general rule *389 that knowing
“he assumed the risk that he would be denied the benefit of
and voluntary appellate and collateral-review waivers are
future legal developments.”
Id. Most other circuits have
enforceable: first, ineffective assistance of counsel, United
reached the same conclusion when considering appellate or
States v. White, 307 F.3d 336, 339 (5th Cir. 2002), and second,
collateral-review waivers in the context of
Johnson-based
a sentence exceeding the statutory maximum. 10
9
challenges.
9

10
See, e.g., United States v. Bey, 825 F.3d 75, 82–
83 (1st Cir. 2016) (enforcing appellate waiver to

See United States v. Leal, 933 F.3d 426, 431 (5th
Cir.), cert. denied, ––– U.S. ––––, 140 S. Ct. 628,

bar

205 L.Ed.2d 406 (2019).
Leal appears to be the
first published case, in this circuit, specifically to
adopt that exception, but a past panel purported to

Johnson challenge, even after considering

“miscarriage of justice” exception);
Sanford
v. United States, 841 F.3d 578, 581 (2d Cir.
2016) (per curiam) (“Sanford’s collateral attack
waiver therefore bars the present motion because
the waiver encompasses any challenge to his
sentence.”);
In re Garner, 664 F. App'x 441,
442 (6th Cir. 2016) (“[W]e must deny Garner’s
motion for the same reason he lost his direct appeal
and his
§ 2255 action: Garner waived his right
to challenge his sentence collaterally in his plea
agreement.”); United States v. Ford, 641 F. App'x
650, 651 (8th Cir. 2016) (per curiam) (enforcing
appeal waiver to bar defendant’s
Johnson
challenge); United States v. Hurtado, 667 F.
App'x 291, 292 (10th Cir. 2016) (per curiam)
(“The government unequivocally establishes that
the [ Johnson-based] appeal falls within the
scope of the waiver, the waiver was knowing
and voluntary, and enforcing the waiver will
not result in a miscarriage of justice.”). But
see
Torres, 828 F.3d at 1125 (refusing to
enforce appeal waiver on the ground that such

adopt it in an unpublished decision. See
United
States v. Hollins, 97 F. App'x 477, 479 (5th
Cir. 2004) (per curiam). The government brought
Hollins to the attention of the district court
and Barnes in its motion to dismiss. Nonetheless,
Barnes didn’t cite Hollins or make any argument
—in either his district-court briefing or on appeal—
that his sentence exceeded the applicable statutory
maximum. To the extent that Barnes tried to claim
the benefit of
Leal at oral argument, he had
already forfeited any opportunity to do so. Cf.
Arsement v. Spinnaker Expl. Co., 400 F.3d 238,
247 (5th Cir. 2005) (“No authority need be cited for
the rule that, generally, we do not consider an issue
first raised at oral argument on appeal.”).
[12] Barnes invokes neither exception but, instead, avers
that his sentence was imposed unlawfully because, after
Johnson, it violated the Constitution. Unfortunately for
Barnes, however, that doesn’t get him out from under
the collateral-review waiver to which he agreed. As the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Barnes, 953 F.3d 383 (2020)

Timothy Burns panel recognized, defendants can waive
the right to challenge both illegal and unconstitutional

similarly phrased argument, the
Timothy Burns panel, 770
F. App'x at 191, reached the same conclusion.

sentences. 11 Barnes’s reliance on
Torres is misplaced.
The fact that Ninth Circuit caselaw runs counter to ours
doesn’t empower us to refuse to apply binding precedent.

12

11

See Timothy Burns, 770 F. App'x at 190; see also
Kelly, 915 F.3d at 347 (holding that defendant’s
appeal waiver barred court from considering his
claim that the district court improperly “appl[ied]
the ACCA enhancement because he lacks the
requisite number of violent felony predicates”);
United States v. Keele, 755 F.3d 752, 757 (5th
Cir. 2014) (“Here, because the appeal waiver in
Keele’s signed, written plea agreement waived
his right to appeal his sentence with only three
specific exceptions, none of which apply here, we
conclude that his Eighth Amendment claims are
also waived.” (footnote omitted)); United States
v. Portillo-Munoz, 643 F.3d 437, 442 (5th Cir.
2011) (holding that defendant’s appellate waiver
barred challenge to statute of conviction on Fifth
Amendment grounds, because his plea agreement
reserved only his right to challenge the statute on
Second Amendment grounds);
United States v.
Baty, 980 F.2d 977, 979 (5th Cir. 1992) (“After
waiving her right to appeal, the district court could
err in its application of the Sentencing Guidelines
or otherwise impose an illegal sentence.... Yet, the
defendant, who has waived her right to appeal,
cannot appeal these errors.”).

Barnes states merely that “[m]any defendants”
have had their sentences reduced under Johnson
and that it would be “patently unjust and unfair” to
deny him relief because he agreed to a collateralreview waiver. But he doesn’t offer any explanation
of why it’s unfair to treat defendants who agree to
waive their rights differently from those who don’t.

*390 Barnes’s
§ 2255 motion is barred by his collateralreview waiver. The appeal is DISMISSED.

E. GRADY JOLLY, Circuit Judge, dissenting:
I dissent because I respectfully disagree with the majority’s
disregarding a binding and precedential decision of this court:
United States v. Leal, 933 F.3d 426 (5th Cir. 2019).
The majority dismisses Appellant’s
Leal argument on the
grounds that he did not raise it in the district court nor in his
briefing to this court. See footnote 10 (“To the extent that
Barnes tried to claim the benefit of
Leal at oral argument,
he had already forfeited any opportunity to do so.”). A flimsy
reason indeed when
Leal had not been decided at the
time of briefing in the district court or in this court. Yet
the majority thus holds that by failing in his briefing to cite
Leal—which was impossible for Barnes or anyone else to
have known—Barnes somehow “forfeited” the right to raise
Leal at oral argument.

C.
[13] Finally, Barnes spends two paragraphs suggesting
that we can refuse to enforce his waiver by applying
a “miscarriage of justice” exception. Though some other
circuits recognize such an exception, we have declined
explicitly either to adopt or to reject it. See United States v.
Ford, 688 F. App'x 309, 309 (5th Cir. 2017) (per curiam).
Barnes does not, however, (1) explain the proper scope of that
exception, (2) cite any cases purporting to do so, or (3) detail
how and why it should apply to his case. 12 By only briefly
alluding to that theory, Barnes has waived any contention that
such an exception applies. See
United States v. Scroggins,
599 F.3d 433, 446–47 (5th Cir. 2010). When confronted with a

“Forfeiture is the failure to make the timely assertion of
a right.”
United States v. Arviso-Mata, 442 F.3d 382,
384 (5th Cir. 2006). Yet, at oral argument was timely here.
Even assuming a forfeiture, however, “[f]orfeited errors are
reviewed under the plain error standard.” Id. The majority,
nevertheless, fails to apply plain error review to Barnes’s
Leal claim, effectively treating it as waived. “[W]aiver
is the intentional relinquishment of a known right.”

Id. I

repeat myself to say that at the time of briefing,
Leal was
not a known right. In short, I would join Judge Smith and his
panel in

DSC Commc’ns Corp. v. Next Level Commc’ns,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Barnes, 953 F.3d 383 (2020)

107 F.3d 322 (5th Cir. 1997), which said it was “unwilling
to ... perpetuate incorrect law, merely because [a precedent]
was decided after briefing ... in this case.”

Id. at 326 n.2.

All Citations
953 F.3d 383

It would seem to me that the panel is obligated to address
Leal as it applies to this case. I therefore respectfully
dissent.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

